                                       AUDIT




 MANAGEMENT OF RIGHTS-OF-WAY
 IN THE U.S. DEPARTMENT OF THE
 INTERIOR




Report No.: C-IN-MOA-0013-2010   September 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                              SEP . 2 7 2012
Memorandum

To:            David J. Hayes
               Deputy Secretary

From:          Mary L. Kendall
               Deputy Inspector General

Subject:       Final Audit Report - Management of Rights-of-Way in the U.S. Department of
               the Interior
               Report No. C-IN-MOA-0013-2010

        This report presents the results of our audit of the U.S. Department ofthe Interior's
(Department) management of rights-of-way (ROW). We found that the Department's bureaus
have an opportunity to collect as much as $100 million or more annually if they assess market
value for rents.

       We make 17 recommendations to take advantage of these opportunities. The
recommendations target the Department and its bureaus performing ROW rent valuations based
upon actual market values, revising and updating ROW rent schedules, and identifying
unreported services and collecting back rents on ROW. We believe that fully implementing our
recommendations will result in improved ROW management, as well as increased revenues that
more than offset any costs incurred.

        The Department generally concurred with all of our recommendations and provided
general and technical comments in response to our draft report (see appendix 5). Based on these
comments, we revised some sections of the report. We consider 13 recommendations to be
resolved but not implemented (see appendix 4). We consider Recommendations 1, 3, and 11 to
be unresolved, and are requesting clarification ofthe Department's plans for implementing these
recommendations. Additionally, management concurred with Recommendation 16; we are
requesting additional information before deeming this recommendation to be fully resolved.
Upon consideration of our analysis in the "Conclusion and Recommendations Summary" section
ofthis report, please provide us with your additional response to Recommendations 1, 3, 11, and
16 within 30 days. Please address your response to -

        Ms. Kimberly Elmore
        Assistant Inspector General for Audits, Inspections, and Evaluations
        U.S. Department of the Interior
        Office of Inspector General
        MS 4428-MIB
        1849 C Street, NW.
        Washington, DC 20240



                               Office of Inspector General I Washington, DC
      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

        If you have any questions regarding this memorandum or the subject report, please do not
hesitate to contact me at 202-208-5745.




                                                2
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
   Objective......................................................................................................................... 2
   Background..................................................................................................................... 2
Findings................................................................................................................... 4
   Obtaining Market Value for ROW ................................................................................. 4
   Rental Rate Schedules .................................................................................................... 6
   Periodic Rent Reevaluation .......................................................................................... 10
   Rent Collection for Unreported Services...................................................................... 10
   Collection of Back Rents .............................................................................................. 12
   BLM’s Service Rent Discounts .................................................................................... 12
   National Park Service’ ROW Management.................................................................. 13
   Appraisal Services and Indian Affairs .......................................................................... 14
Conclusion and Recommendations Summary ...................................................... 16
   Conclusion .................................................................................................................... 16
   Recommendations Summary ........................................................................................ 16
   OIG Analysis of General and Technical Comments .................................................... 24
Appendix 1: Scope and Methodology................................................................... 27
   Scope ............................................................................................................................ 27
   Methodology................................................................................................................. 27
Appendix 2: Organizations Visited or Contacted ................................................. 29
Appendix 3: Potential Additional Revenues ......................................................... 31
Appendix 4: Department’s Response.................................................................... 32
Appendix 5: Status of Recommendations ............................................................. 62
Results in Brief
The U.S. Department of the Interior (Department) and its bureaus have the
opportunity to collect additional rents of almost $100 million or more annually for
the tens of thousands of rights-of-way (ROW) that cross public and Indian lands.
This potential revenue is not collected because rents are set below market value,
rent discounts are not justified, and unauthorized uses of ROW are not identified
and corrected. A majority of the Department’s ROW and associated revenues are
managed by the Bureau of Land Management (BLM), but other bureaus and
offices also have important roles in ROW management.

Federal laws and regulations allow the Department to assess market value for
ROW rents, but the Department has not established guidance to fully implement
this authority. While the amount of undervalued ROW cannot be precisely
determined, BLM and the National Park Service estimate that their collective,
annual, uncollected rent is between $94 million and $132 million.

Recommendations we make include conducting rent valuations based upon actual
market values, revising and updating rent schedules, identifying unreported
services, and collecting back rents. Most of the recommendations will not require
additional funding. Fully implementing the recommendations, however, should
result in increased revenues, thereby offsetting any costs.




                                                                                 1
Introduction
The U.S. Department of the Interior (Department) and its bureaus manage more
than 125,000 rights-of-way (ROW) on public and Indian lands, mostly in the
American West, for purposes ranging from transmission of data and electricity to
transportation of petroleum and natural gas.

Objective
The objective of our audit was to review the Department’s management of ROW
and determine whether the Department was recovering market value for Federal
land use. For details on our scope and methodology, see appendix 1. For a list of
organizations visited or contacted, see appendix 2.

Background
A ROW provides a grantee use of Federal or Indian lands for a specified period
and purpose. Allowing ROW on public lands fosters development of domestic
energy resources, expansions of communications infrastructure, and
improvements to transportation networks. A grant can satisfy an individual’s need
for constructing an access road to a home, or can apply to extensive commercial
facilities that deliver critical consumer services for entire regions of the United
States. ROW we reviewed are classified as either linear for roadways, electric
transmission lines, oil and gas pipelines, and fiber-optic cables; or as
communications sites for cellular telephone, television, radio, and wireless
Internet service.

The Department has more than 125,000 ROW. These include more than 100,000
ROW managed by the Bureau of Land Management (BLM), more than 20,000
managed by Bureau of Indian Affairs (BIA), and fewer than 5,000 each on lands
managed by the other three land management agencies—National Park Service
(NPS), Bureau of Reclamation (USBR), and the U.S. Fish and Wildlife Service
(FWS). The Mineral Leasing Act of 1920, the Indian Right of Way Act of 1948,
the Federal Land Policy and Management Act of 1976, and other legislation
confer authority to the Department to grant ROW. These statutes and
implementing regulations generally require charging market value rents for lands
used under ROW grants, though about half are exempt from rent collection due to
special authorities such as the Rural Electrification Act. For real estate
transactions, the general definition of market value is the price paid and received
by a reasonably knowledgeable and willing owner and buyer at the time of the
transaction. The rent collected on some ROW can exceed $1 million throughout
the ROW’s term.

The “Uniform Appraisal Standards for Federal Land Acquisition” promotes
consistent appraisals of property for various Federal agencies. To estimate market
value for determining ROW rents, these standards allow the Department and its
bureaus to value ROW based upon the value of the right or use granted. The
                                                                                    2
Department’s “Appraisal Policy Manual” issued in September 2006 by the Office
of Valuation Services (then known as Appraisal Services Directorate) requires
valuations to comply with the “Uniform Appraisal Standards.” Bureaus then
supplement appraisal policy with more detailed procedures for their real estate
activities.

ROW rents are determined through a variety of methods, including individual
ROW market valuations, use of predetermined amounts in rent schedules,
negotiations, or through other methods. A practical way to determine individual
market value is to identify and analyze rents paid on similar, or comparable,
ROW. This information may be easy to obtain on Federal, State, and local public
lands, but it is difficult to obtain on private ROW because landowners often sign
nondisclosure agreements. Comparable ROW information is available from
private companies, but often only for a fee.

To reduce the workload of performing individual valuations, BLM uses linear and
communications rent schedules to establish rents. Neither schedule, however,
reflects the current market value based on comparable rents for ROW. BLM bases
its linear rent schedule on the amount of land used and particular values assigned
to each county in the United States. BLM bases its communications site schedule
on the population in the area served and an estimate of the value of the service to
the grantee. This schedule was implemented in 1995, and has been adjusted
annually for inflation.

BLM and the U.S. Forest Service, which is in the U.S. Department of Agriculture,
share thousands of miles of boundaries and have contiguous ROW that cross their
respective lands. To manage ROW consistently, they have similar regulations and
identical rent schedules, and their personnel participate in similar training classes.
Other land management agencies in the Department, however, may use different
regulations and valuation methods.

When bureaus do not use BLM’s rent schedules, they may conduct or contract out
valuations, or refer them for action to one of two offices in the Department. The
Office of Valuation Services serves the Department’s land management agencies.
The Office of Appraisal Services in the Office of the Special Trustee for
American Indians serves BIA.

In 2010, the Secretary of the Interior reorganized Valuation Services, placing it
under the Assistant Secretary for Policy, Management and Budget. This change
clearly identified Valuation Services’ oversight of all real estate valuation
functions for the Department and its land management agencies.




                                                                                    3
Findings
The bureaus we reviewed do not receive market value for rents on ROW. The
total value of additional rents that might be collected, could exceed $100 million
annually based on estimates provided by BLM and NPS.

This is due to several reasons:

   •   The Department and its bureaus do not set ROW rents based upon market
       value.
   •   The Department and its bureaus generally do not value ROW based upon
       comparable market data.
   •   The Department and its bureaus do not prioritize high-value ROW for
       individual valuation.
   •   Valuation Services and Appraisal Services’ personnel lack training to
       conduct individual ROW valuations.
   •   Linear ROW schedules do not account for the value and volume of
       authorized products.
   •   ROW rent schedules for communications sites are out of date and fail to
       consider the volume of service authorized.
   •   Bureaus do not reevaluate rents on ROW for changes in market value.
   •   Added services on ROW go unreported and rents go unpaid.
   •   Back rents are not collected consistently.
   •   Rent discounts on added services are not justified.

Valuation Services’ recent reorganization positions it to guide ROW management
throughout the Department. Valuation Services and BLM personnel agreed that
the size and complexity of BLM’s programs, its congressional mandates, and its
existing regulations make it advisable they work together on many of the
recommendations in this report.

Obtaining Market Value for ROW
Defining Market Value
In establishing the market value of rent for a ROW, Federal standards allow
consideration of the ROW’s value to the grantee. The Department’s “Appraisal
Policy Manual,” however, does not require consideration of this value. Bureaus
usually do not consider this value, and as a result, they undervalue rents.

Market value is based on comparable rents, factors including the value and
volume of the product or services authorized, and the location and size of the
markets served. Proper application of these concepts is critical to obtaining
market value, whether through individual valuations or in establishing rent
schedules. A Valuation Services manager said that a top priority was to revise the
“Appraisal Policy Manual” to address valuation and appraisal policies.


                                                                                     4
Comparable Market Data
We found that neither Valuation Services nor Appraisal Services maintained the
market data needed to perform comparable valuations. Valuations based upon
comparable market data generally compare the proposed ROW with the rents and
other terms in ROW grants from other publicly and privately held lands with
similar market characteristics. Obtaining this data is central to identifying
accurate market values.

We obtained comparable ROW information from Internet searches and from a
company specializing in land valuation that performed contract work for NPS.
Officials with this firm explained that they relied on a database of 25,000 ROW.
They said they generally only share this information with companies in reciprocal
relationships, or for a fee.

Although most ROW are valued based upon rent schedules, obtaining true market
value requires individual valuations of proposed ROW. Data needed for valuing
and prioritizing ROW could include the value and volume of a proposed service
or product in addition to its location and land requirements. Currently, Valuation
Services performs few individual valuations and does not base them upon market
value to the grantee. Low staffing levels in Valuation Services, in contrast to the
large number of ROW in the Department, require that it prioritize ROW for
individual valuation to focus on higher-value opportunities.

Training for Personnel
The complexity of doing ROW valuations requires specific guidance, training, or
experience to do market valuations for ROW. Valuation Services’ staff agreed
that conducting complex valuations might initially require using qualified private
firms experienced in this work, with Department staff to oversee it. They could
then further develop staff to conduct future valuations.




                                                                                  5
 Recommendations

    1. Following “Uniform Appraisal Standards,” Valuation Services should
       define market value of ROW to include the value of the right or use
       granted.

    2. Valuation Services should create and maintain a database of comparable
       ROW information.

    3. Valuation Services should establish criteria to prioritize ROW using
       market considerations including the value and volume of the service
       authorized.

    4. Valuation Services should perform high-priority, individual valuations as
       allowed, given its resources.

    5. Valuation Services should develop and implement guidance and training
       requirements for staff to conduct individual ROW valuations.


Rental Rate Schedules
Most ROW in the Department are valued based on established rent schedules
because the workload created to perform individual valuations would otherwise
be prohibitive. These schedules do have an administrative benefit, but they do not
reflect market value. Based on data that BLM provided and additional information
gathered independently, BLM agreed it could potentially collect an additional
$77 million to $115 million in ROW rents annually (see appendix 3).

Linear Rent Schedule
BLM’s linear schedule does not set rental rates based on the market value and
volume of products authorized. The schedule’s attributes include the county land
values where a ROW is located and the number of acres authorized for use. When
compared to linear rental rates for similar lands we identified, BLM’s schedule
generated the lowest revenues. These lands included comparable State and local
government, Indian, and private lands. We discussed BLM’s schedule with
Valuation Services, Appraisal Services, and BLM staff. They all agreed that the
schedule could be revised to more accurately value ROW that are not individually
valued. We provided comparable rent data, and BLM acknowledged that it might
not be recovering between $44 million to $82 million annually from undervalued
linear ROW rents (see appendix 3).




                                                                                   6
Figure 1. Electrical power lines like these on a linear ROW cross U.S. Government lands to bring
power to both rural and urban areas of the Nation. Source: Office of Inspector General (OIG)
photo.

BLM charges the same ROW rents for the following authorized products in the
same county regardless of product value and volume—

    •   pipelines that have different capacities and carry different products,
        including water, crude oil, and refined oil;
    •   electrical lines that are low voltage for a single home or high voltage to
        power entire cities (see figure 1 above); and
    •   fiber-optic cables that range from 108 low-capacity strands to 436 high-
        capacity strands.

The following examples illustrate that BLM is collecting less than market value
rent for linear ROW:

    •   The Sacramento Regional Transit District charges $13,200 per mile, per
        year, for mid-sized gas pipelines in counties where BLM’s 2011 rate for
        the same service is $388 per mile, per year.
    •   A large ranch in Southern California charges about $9,200 per mile, per
        year, for linear ROW while the average rate charged in Southern
        California is about $7,900 per mile, per year. BLM’s 2011 linear rate in

                                                                                              7
       three large counties, per mile, varies as follows: Kern $291, San
       Bernardino $388, and Riverside $969.
   •   Wyoming charges $96 per mile, per year, for a 30-foot-wide power line
       ROW in counties where BLM’s 2011 rate for similar services is $29 per
       mile, per year.
   •   Utah charges about $202 per mile, per year, for mid-sized oil and gas
       pipeline ROW in counties where BLM’s 2011 rate for similar services is
       $77 per mile, per year.
   •   New Mexico charges about $90 per mile, per year, for a 50-foot-wide
       power line ROW in counties where BLM’s 2011 rate for similar services
       is $48 per mile, per year.

 Recommendations

    6. BLM should revise its linear rent schedule and include provisions to
       periodically update the schedule to reflect current market value.

    7. Valuation Services should work with BLM to implement linear rent
       schedules for departmentwide use with provisions to periodically
       update the schedules.


Communications Site Rental Schedule
BLM’s communications site schedule also does not set rental rates based on the
current market value and volume of service. The attributes used in the schedule
are the estimated value of the service to the grantee calculated in 1992, and then
adjusted for inflation and the population of the area served. BLM officials
acknowledged that the increases for inflation in the schedule do not reflect the
higher values for the services in the rapidly expanding, wireless communications
industry. Valuation Services, Appraisal Services, and BLM staff all agreed that
they could use the schedule, with market value revisions, to value all ROW not
individually valued. We provided comparable rent data to BLM, and it estimated
$33 million annually in undervalued communications site ROW rents (see
appendix 3).




                                                                                     8
Figure 2. Hundreds of communications sites like this one dot Federal lands. The Department
grants companies ROW for their use. Source: BLM photo.

For communications sites such as the one in figure 2, BLM charges the same
ROW rents for the following authorized services in the same area regardless of
the volume—

    •   television services, whether the service is directed to a small market, such
        as educational TV, or a larger market such as professional football; and
    •   a radio station that reaches only a small percentage of a market area or one
        which has sufficient power to reach other large metropolitan markets.

The following examples illustrate that BLM is collecting less than market value
rents for similar communications site ROW:

    •   In 2008, NPS hired a contractor specializing in communications site
        valuations. The contractor determined an annual rent of $64,800 for a
        communications site in California’s Whiskeytown National Recreation
        Area. By comparison, an annual rent based on BLM’s schedule would
        have been only $16,387.
    •   In 2009, NPS hired a contractor that determined an annual rent of $12,000
        for a communications site in California’s Redwood National Park. By
        comparison, the California Department of Transportation’s rent would
        have been about $15,000 while BLM’s rent would have been $3,585.
    •   In 2009, BLM’s rent for a cellular telephone communications site in rural
        areas of Arizona was about $3,585 annually. By comparison, the Arizona

                                                                                             9
       Department of Transportation would have charged about $10,900 and the
       State of New Mexico would have charged about $5,160.

 Recommendations

    8. BLM should revise its communications site rent schedule and include
       provisions to periodically update the schedule to reflect current
       market value.

    9. Valuation Services should work with BLM to implement
       communications rent schedules for departmentwide use with
       provisions to periodically update the schedules.


Periodic Rent Reevaluation
To provide the grantee stability, ROW terms are typically about 30 years, and in
some cases, perpetual. Obtaining market value over these long terms would
require the Department and its bureaus to periodically review and adjust rents to
reflect current market values. While some grants and BLM regulations provide for
rent review, we could find no evidence of rent reviews performed. Neither we nor
BLM was able to estimate the value of rents that could be collected if rent
reevaluations were performed.

Prior to 2010, BLM’s policy was to adjust linear rents only if a reevaluation found
rents charged were below market value by 10 times for linear fees and 5 times for
communications sites. BLM eliminated the linear adjustment rule in 2010, but not
the communications site rule. BLM officials could not provide any justification
for the adjustment level for communications sites and stated BLM should
eliminate it. We note, however, that this may require a formal change to the Code
of Federal Regulations to do so.

 Recommendations

    10. Valuation Services should work with BLM to develop and implement
        procedures for departmentwide periodic reevaluations of ROW grants,
        with authority to update rental rates to reflect current market values.

    11. BLM should reduce or eliminate the market value threshold required
        to adjust rents on ROW for communications sites.


Rent Collection for Unreported Services
Grantees often do not report and pay rent on additional communications services
not approved in the original ROW grant, or on those added to the ROW by
colocators. Colocators are parties that install additional services to the ROW for a
                                                                                  10
fee paid to the grantee (see figure 3). BLM estimated it loses about $7 million
annually in rent on these unreported services. To reduce these losses, BLM spends
about $30,000 annually on site reviews. Over the 5-year period from 2006
through 2010, BLM recovered additional rent revenues exceeding $525,000—
more than three times the cost of the reviews.

For instance, in New Mexico in 2008, a BLM review found a tower company that
allowed three cellular users and three Internet service providers to install services
on its site without notifying and paying rent to BLM. The audit revealed
unreported annual rent from these colocators at $12,258. In Nevada in 2009, a
review found an unauthorized television service that should have had its own
separate ROW with BLM. The review revealed a loss of $31,950 in annual rent.

BLM has Congressional authority to retain up to $2 million annually from the rent
collected from communications sites to fund program operations. To increase
program funding for activities including additional site reviews, ROW staff
proposed seeking authority from Congress to retain 50 percent of the total rents
BLM collects. According to a BLM official, the Office of Management and
Budget denied this request in 2012.




Figure 3. This communications site on Kelso Peak at the Mojave National Preserve has numerous
colocators that may not be paying rent on their ROW. Source: OIG photo.




                                                                                          11
BLM is the only agency we identified doing communications site reviews to
identify unreported services. BLM staff said that the issue is widespread because
there are no effective penalties for nonreporting and nonpayment.

 Recommendations

    12. The Department’s Office of Budget should seek authority for BLM and
        other bureaus with ROW responsibilities to retain a percentage of the
        revenues recovered from reviews that identify unpaid rent from
        unreported services. Bureaus could use these additional revenues to
        fund additional reviews.

    13. Valuation Services should work with bureaus with ROW
        responsibilities to implement penalties for grantees that do not report
        additional services and fail to pay rents.


Collection of Back Rents
Unpaid ROW rents can go undetected for many years. Determining the amount to
collect can be complex. ROW personnel do not have procedures for consistently
calculating and collecting back rents. Discussions with ROW personnel indicated
that they are using different approaches to determine charges for back rents.
Variables include how far back to go in calculating back rents, and whether to
charge interest or penalties. Neither we nor BLM was able to estimate the value of
back rents that could be collected if back rents were consistently collected.

 Recommendation

    14. Valuation Services should work with the bureaus to develop and
        implement departmentwide procedures for calculating and collecting
        unpaid back rents.


BLM’s Service Rent Discounts
BLM estimates it provides grantees more than $5 million in annual rent
reductions for additional ROW services on communications sites. It provides
these discounts to communications site grantees with multiple uses on sites, or
that sublease to colocators. BLM’s policy is to charge the primary grantee the full
rent of the highest value communications service on site, and then discount by 75
percent the originally scheduled rent for each additional service. BLM officials
could not provide justification for colocators receiving this discount. They said
that discounts should be eliminated, but to do so may require a change to the Code
of Federal Regulations.



                                                                                  12
BLM identified the following examples:

   •   At a site in Grand Junction, CO, the current rent was $16,337. There were,
       however, six companies using the site. If BLM charged all of the
       colocators full rent for the site, the total rent would have been $52,561, a
       difference of $36,224.
   •   At another site in Rifle, CO, the rent charged was $10,228. There were 22
       total services on that site. Had all colocators paid full rent for the site, rent
       would have been $30,251, a difference of $20,023.

 Recommendation

    15. BLM should reduce or eliminate the 75 percent discount for additional
        grantee and colocator ROW site services, or justify any discount
        provided.


National Park Service’ ROW Management
NPS estimated that it might not be collecting as much as $5 million annually in
ROW rents. At market values, uncollected rents could be even higher.

ROW Inventory
Estimating NPS’ uncollected revenues is difficult, in part because it does not have
a comprehensive inventory of ROW. Though the number of ROW is unknown,
staff members estimated it has fewer than 5,000. Though they may be few, many
ROW in park units are high in value because they are located near or in major
urban areas. For instance, NPS identified seven companies with ROW in San
Francisco’s Golden Gate National Recreation Area. NPS collects more than
$500,000 in annual rents from these companies.

On March 3, 2011, we issued NPS and BLM a “Notice of Potential Findings and
Recommendations” (NPFR) addressing our concerns about their ROW
management at the Death Valley and Joshua Tree National Parks, and the Mojave
National Preserve. We noted in the NPFR that ROW were not being adequately
managed and monitored to ensure that rent collections were made and site
protection and reclamation occurred. This was because adequate plans and
processes were not in place to ensure necessary communications and joint
management were taking place for ROW transferred from BLM to NPS due to the
California Desert Protection Act. In the NPFR, we recommended that the two
bureaus each identify a point of contact and ensure that BLM transfers all
necessary ROW information to NPS. Both bureaus agreed to implement the
recommendations.




                                                                                     13
Funding Qualified Personnel
Managing ROW is complex, requiring realty personnel with land management
knowledge. In general, NPS does not effectively manage ROW because resource
protection personnel, such as park rangers, do not have the technical
qualifications to manage them effectively, and they consider ROW a low priority.

NPS generally funded realty specialists through the Land and Water Conservation
Fund. Due to the restrictions placed on using these funds, realty specialists could
only work on land acquisitions. In 2012, NPS reallocated funds for additional
realty specialists to assist with ROW and other land management issues.

Promising Practice
NPS’ Pacific West Region was the only office we identified in the Department
that used a contractor specializing in valuing communications site ROW to
estimate market value rents. The NPS employee who used the contractor was a
licensed appraiser. We met with officials from the contractor who explained that
they relied on identifying comparable rates in similar areas and that, critical to its
work, they maintained an inventory of 25,000 appraisals to identify comparable
properties. Because these valuations considered comparable ROW rents, they
resulted in ROW rents far exceeding those from Department valuations and
BLM’s rent schedule.

 Recommendation

     16. NPS should continue to implement a ROW management program that
         includes completing an inventory of its ROW and assigning qualified
         realty staff.


Appraisal Services and Indian Affairs
Appraisal Services conducts or oversees an estimated 2,000 to 3,000 annual ROW
valuations. These valuations do not include an assessment of market value. BIA
and Appraisal Services’ officials stated that tribes can generally get far higher
rents for ROW when they negotiate rather than when using Appraisal Services’
rates. Neither we nor Appraisal Services were able to estimate the value of
additional rents that could be collected if Appraisal Services performed market
value appraisals.

We identified Appraisal Services’ valuations that were millions of dollars below
what tribes actually received:

   •   In 2006, a tribe in New Mexico received about $2 million for a 20-year, 7-
       mile, ROW for a natural gas pipeline. The tribe negotiated a value of
       about $14,300 per mile, per year, versus about $95 per mile, per year, as
       valued by Appraisal Services.

                                                                                    14
 •   In 2008, a tribe in New Mexico received about $3 million for a 20-year,
     12.8-mile, natural gas pipeline ROW. The tribe negotiated a value of about
     $11,700 per mile, per year, versus about $800 per mile, per year, as valued
     by Appraisal Services.

Recommendation

  17. Appraisal Services should consult with the Office of the Solicitor to
      determine which recommendations in this report are applicable to
      Indian Affairs.




                                                                              15
Conclusion and Recommendations
Summary
Conclusion
The Department and its bureaus are missing opportunities to collect as much as
$100 million or more each year. Current ROW rents are not based on market
value, and in some instances, rents are discounted. Unauthorized uses of ROW do
not generate any rents unless these uses are identified by the responsible bureau
and corrective action is taken. In this report, we provide 17 recommendations that,
if fully implemented, will result in substantial additional revenues. By revising
and updating rent schedules and performing market-based valuations of selected
ROW, the Department and its bureaus could better meet mandates to secure a fair
return for the use of public lands.

Most of our recommendations can be implemented without additional costs.
Others may require some investment in staff development or improvements in
ROW information. Together, these improvements will enable the Department to
generate rents that will far exceed the expected costs. ROW allow for the delivery
of important services to the American public; they should also yield market value.

Recommendations Summary
The Department responded to our draft report by providing an action plan and
identifying a responsible official for each of our recommendations. We key our
analysis, below, to the office or bureau identified in the Department's response.

1. Following “Uniform Appraisal Standards,” Valuation Services should define
   market value of ROW to include the value of the right or use granted.

   Valuation Services’ Response
   Valuation Services concurred with this recommendation. It did take issue,
   however, with the term “market value,” preferring the term “market rent.” It
   noted: “Market rent is consistent with the use of market value, but recognizes
   the nature of a ROW versus the conveyance of an easement. The OVS
   [Valuation Services] will implement the recommendation by issuing a guide
   note to the OVS appraisal staff based on the following definition”:

       The most probable rent that a property should bring in a competitive and
       open market reflecting all conditions and restrictions of the specified lease
       agreement including term, rental adjustment and revaluation, permitted
       uses, use restrictions, and expense obligations; the lessee and lessor each
       acting prudently and knowledgably, and assuming consummation of the
       lease contract as of a specified date. . .



                                                                                    16
   OIG Analysis of Valuation Services’ Response
   We consider this recommendation unresolved and not implemented. Valuation
   Services concurred with the recommendation and provided a definition of
   market rent. The definition, however, is not specific to ROW. Instead, it
   speaks to “probable rent that a property should bring.” Our recommendation
   seeks a definition specific to ROW grants. The definition of market value of
   ROW should clearly include the value of the right or use granted. Rent
   determinations should not be based solely on property value, but the value of
   ROW to the grantee. The intent is that high-value services should result in
   higher valuation and, thus, higher ROW rent. We request Valuation Services
   reconsider its definition of market value of ROW. When resolved, the
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.

2. Valuation Services should create and maintain a database of comparable
   ROW information.

   Valuation Services’ Response
   Valuation Services concurred with this recommendation. It noted that
   Appraisal Services has a ROW database it uses for work with BIA and tribal
   nations. Valuation Services will consult with Appraisal Services to create a
   consistent data format and, subject to approval of funding, develop a database
   parallel to the Appraisal Services’ database. Valuation Services will also work
   with BLM to identify ROW data needs for ROW grants issued under existing
   authorities, and to coordinate future data requirements that result from any
   regulatory changes.

   OIG Analysis of Valuation Services’ Response
   We consider this recommendation resolved but not implemented. The
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.

3. Valuation Services should establish criteria to prioritize ROW using market
   considerations, including the value and volume of the service authorized.

   Valuation Services’ Response
   Valuation Services concurred with this recommendation. Valuation Services
   acknowledged that it “has expertise in gathering and evaluating market
   consideration including the value and volume of the service authorized.” It
   stated that it has completed appraisals when requested by client bureaus,
   noting that it has “operated effectively within current regulatory authorities.”
   Valuation Services said it will develop “a criteria document in coordination
   with BLM, consistent with applicable legal authority, specifying when
   valuations are advisable rather than use of the fee schedule.”




                                                                                  17
   OIG Analysis of Valuation Services’ Response
   We consider this recommendation unresolved and not implemented. We are
   unable to reconcile a discrepancy between the narrative response and the
   corrective action plan. The former indicates a long-term effort (to December
   2014) while the latter indicates prompt action (by December 2012). It could
   be that both are valid, but we need more information to understand Valuation
   Service’s position. When resolved, the recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget for tracking its
   implementation.

4. Valuation Services should perform high-priority, individual valuations as
   allowed, given its resources.

   Valuation Services’ Response
   Valuation Services concurred with this recommendation. Valuation Services
   stated that it has “the staff capacity to complete a limited number of individual
   valuations,” but that it is currently restricted by its primary source of funding,
   which allows it to work on land acquisitions and by current regulations over
   BLM ROW valuation.

   Valuation Services noted that should funding sources and legal authorities
   change, it “will establish a discipline-specific team to handle the high value
   ROW.”

   OIG Analysis of Valuation Services’ Response
   We consider this recommendation resolved but not implemented. We are
   uncertain that the regulatory constraints on BLM are as restrictive as
   portrayed in the response. Specifically, the Code of Federal Regulations (43
   C.F.R. § 2806.50) allows other means to value ROW, including “a process
   based on comparable practices, appraisals, competitive bid, or other
   reasonable methods.” Thus, BLM can conduct high-value valuations. The
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.

5. Valuation Services should develop and implement guidance and training
   requirements for staff to conduct individual ROW valuations.

   Valuation Services’ Response
   Valuation Services concurred with this recommendation. It acknowledged that
   it “can capitalize on skills already present within its ranks” and will “focus on
   further education.” Experienced staff can “assist with internal guidance and
   establishing training requirements.” Valuation Services “will coordinate with
   client bureaus to assess current needs, as well as future needs, based on
   potential regulatory changes as appropriate.”




                                                                                    18
   OIG Analysis of Valuation Services’ Response
   We consider this recommendation resolved but not implemented. The
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.

6. BLM should revise its linear rent schedule and include provisions to
   periodically update the schedule to reflect current market value.

   BLM’s Response
   BLM concurred with this recommendation. BLM said it would meet with
   Valuation Services and the U.S. Forest Service “to clarify the scope of
   appropriate changes.” It said it would also consult with the Solicitor’s Office
   “to review appropriate statutes, regulations, and policies” regarding revising
   the schedules.

   OIG Analysis of BLM’s Response
   We consider this recommendation resolved but not implemented. The
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.

7. Valuation Services should work with BLM to implement linear rent schedules
   for departmentwide use with provisions to periodically update the schedules.

   Valuation Services’ Response
   Valuation Services concurred with this recommendation. It will work with
   BLM and other bureaus to “implement linear rent schedules consistently
   across the DOI [Department]” and “establish a time period for completing
   periodic market analyses to ensure that rents appropriately reflect market
   conditions.” Such work will need to be “consistent with existing legal
   authorities . . . as well as any potential regulatory changes.”

   OIG Analysis of Valuation Services’ Response
   We consider this recommendation resolved but not implemented. The
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.

8. BLM should revise its communications site rent schedule and include
   provisions to periodically update the schedule to reflect current market value.

   BLM’s Response
   BLM concurred with this recommendation. It noted that it “has updated the
   current schedule annually based on changes in” inflation, but acknowledged
   that “the underlying market values are based upon stale valuation.” It outlined
   a process for potential regulatory changes, beginning with consultation with
   the Office of the Solicitor. Further, BLM indicated that the proposed changes
   “will include a process for periodic updates.”

                                                                                 19
   OIG Analysis of BLM’s Response
   We consider this recommendation resolved but not implemented. Absent
   strong legal justification, BLM must swiftly update its communications site
   schedule to avoid continuing revenue underrecovery. The recommendation
   will be referred to the Assistant Secretary for Policy, Management and Budget
   for tracking its implementation.

9. Valuation Services should work with BLM to implement communications rent
   schedules for departmentwide use with provisions to periodically update the
   schedules.

   Valuation Services’ Response
   Valuation Services concurred with this recommendation: “OVS will work
   with BLM and the Department to implement communications rent schedules
   and establish time periods for completing periodic market analyses to ensure
   that rents are in step with market conditions, consistent with applicable law.”

   OIG Analysis of Valuation Services’ Response
   We consider this recommendation resolved but not implemented. The
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.

10. Valuation Services should work with BLM to develop and implement
    procedures for departmentwide periodic reevaluations of ROW grants, with
    authority to update rental rates to reflect current market values.

   Valuation Services’ Response
   Valuation Services concurred with this recommendation. Valuation Services
   will assist BLM and the Department “by conducting periodic audits of ROW
   grants to determine whether rental rates are still representative of market value
   after their initial implementation.”

   Valuation Services responded that, because of the different authorities
   underlying ROW grants in various bureaus, there “may be conflict that will
   have to be resolved through rule-making or other administrative procedures.”

   OIG Analysis of Valuation Services’ Response
   We consider this recommendation resolved but not implemented. The
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.




                                                                                 20
11. BLM should reduce or eliminate the market value threshold required to adjust
    rents on ROW for communications sites.

   BLM’s Response
   BLM concurred with this recommendation. BLM will work with Valuation
   Services and the Forest Service “to reassess whether the existing 5 percent
   threshold should be reduced or eliminated based on current market conditions
   and other relevant factors.” BLM also noted that it will consult with the
   Solicitor’s Office to review appropriate statutes, and that if appropriate, BLM
   will publish an “Advanced Notice of Proposed Rulemaking” in order to
   “gather public and stakeholder feedback to inform the appropriate policy
   direction for publishing a final rule.”

   OIG Analysis of BLM’s Response
   We consider this recommendation unresolved and not implemented. BLM
   cited the 5 percent threshold (which we understand to be a reference to 43
   C.F.R. 2806.30, par. a, line 3). We were referring to the 5-times threshold (43
   C.F.R. 2806.30, par. c, line 5). The existing threshold allows too large a gap
   between BLM’s valuation and market value before revaluation is mandated.
   When resolved, the recommendation will be referred to the Assistant
   Secretary for Policy, Management and Budget for tracking its implementation.

12. The Department’s Office of Budget should seek authority for BLM and other
    bureaus with ROW responsibilities to retain a percentage of the revenues
    recovered from reviews that identify unpaid rent from unreported services.
    Bureaus could use these additional revenues to fund additional reviews.

   Department’s Response
   The Department concurred with this recommendation. The Department stated:
   “The Office of Budget will work with the Solicitor, the Office of
   Congressional and Legislative Affairs, and the Office of Management and
   Budget to explore seeking authority to retain a percentage of the rents
   identified during the on-site review process to fund additional reviews and
   training.”

   OIG Analysis of the Department’s Response
   We consider this recommendation resolved but not implemented. We
   reworded the recommendation slightly to reflect the Office of Budget’s
   expected role in implementation. The recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget for tracking its
   implementation.




                                                                                21
13. Valuation Services should work with bureaus with ROW responsibilities to
    implement penalties for grantees that do not report additional services and fail
    to pay rents.

   Department’s Response
   The Department concurred with this recommendation, but noted that there is
   “substantial research to be completed prior to the implementation of the
   penalty programs to ensure that appropriate authorities are in place, and that
   these programs can be designed and implemented for each bureau.” Valuation
   Services will convene a working group to address the recommendation. It will
   use a four-point program:

       •   Identify authorities that may permit penalties.
       •   Review current penalty programs in bureaus, if any.
       •   Develop recommendations for the implementation of penalties.
       •   Implement penalty programs.

   OIG Analysis of the Department’s Response
   We consider this recommendation resolved but not implemented. We
   reworded the recommendation slightly to reflect Valuations Services’
   expected role in implementation. The recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget for tracking its
   implementation.

14. Valuation Services should work with the bureaus to develop and implement
    departmentwide procedures for calculating and collecting unpaid back rents.

   Department’s Response
   The Department concurred with this recommendation. Valuation Services will
   convene a working group to address the recommendation. It will use a four-
   point program:

       •   Identify authorities that may permit collection of back rents.
       •   Review current rent collections programs in bureaus, if any.
       •   Develop recommendations for the implementation of back rent
           collection programs.
       •   Implement programs in each bureau.

   OIG Analysis of the Department’s Response
   We consider this recommendation resolved but not implemented. We
   reworded the recommendation slightly to reflect Valuations Services’
   expected role in implementation. The recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget for tracking its
   implementation.


                                                                                  22
15. BLM should reduce or eliminate the 75 percent discount for additional grantee
    and colocator ROW site services, or justify any discount provided.

   BLM’s Response
   BLM concurred with this recommendation. It noted that under present policy,
   primary grantees are charged “100 percent of the use that generates the
   highest rent on the schedule” while other users “are charged 25 percent each
   of their appropriate rent from the schedule.” This approach “was implemented
   to avoid the BLM having to keep track of rents received [by primary grantees]
   from tenants in each facility” and “responded to specific comments received
   during the rulemaking process that it was not a widespread practice at that
   time to charge a percentage of gross rent from tenants.” It wrote: “The BLM
   agrees to re-evaluate the current practice of charging additional tenants 25
   percent of the regular schedule rent based on current market conditions and
   other relevant factors.”

   OIG Analysis of BLM’s Response
   We consider this recommendation resolved but not implemented. We
   maintain, however, that BLM could charge full schedule rents based on
   reported uses, for all users. This approach would not require tracking how
   much rent is exchanged between the primary grantee and other users, as
   would be the case for a percentage-of-gross-receipts approach. The
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.

16. NPS should continue to implement a ROW management program that
    includes completing an inventory of its ROW and assigning qualified realty
    staff.

   NPS’ Response
   NPS generally concurred with this recommendation. It is “convening a
   nationwide work group to identify and initiate priority tasks.” It recognized
   the need for an inventory of ROW, calling an inventory “invaluable.”

   OIG Analysis of NPS’ Response
   We consider this recommendation partially resolved and not implemented. We
   would like more information about the “priority tasks” as they are identified,
   and a better understanding of NPS’ target dates. In addition, NPS does not
   address the issue of “assigning qualified realty staff” in its response. When
   fully resolved, the recommendation will be referred to the Assistant Secretary
   for Policy, Management and Budget for tracking its implementation.




                                                                                   23
17. Appraisal Services should consult with the Office of the Solicitor to determine
    which recommendations in this report are applicable to Indian Affairs.

   Appraisal Services’ Response
   Appraisal Services concurred with this recommendation. Appraisal Services
   will collaborate with the Office of Solicitor, and BIA as needed, to evaluate
   our recommendations for their applicability to Indian Affairs and its specific
   realty requirements.

   OIG Analysis of Appraisal Services’ Response
   We consider this recommendation resolved but not implemented. The
   recommendation will be referred to the Assistant Secretary for Policy,
   Management and Budget for tracking its implementation.

OIG Analysis of General and Technical Comments
We appreciate the Department’s comments and requests for clarification in its
response to our draft report.

   OIG Analysis of the Department’s General Comments
   The Department expressed concerns with how the estimates for additional
   rents were determined. First, we were aware that about half of BLM’s linear
   ROW are exempt from rent collection. We, and BLM, considered this when
   estimating additional rent revenue opportunities. We have edited the
   “Methodology” subsection in appendix 1 of the report to reflect this.

   Another concern addressed the methods in estimating comparable values for
   both linear ROW and communications sites. For linear ROW, we used the
   BLM schedule data from the same counties as the locations of ROW
   identified. For communications sites, we compared BLM’s rates on specific
   ROW with other government and private rates for similarly located properties
   and services (wireless telephone, television, or radio). We believe that the
   examples cited in our report are reasonably comparable, given the data
   available from BLM, NPS, and a private company. We acknowledge,
   however, that taking these examples and attempting to project to a nationwide
   total is necessarily imprecise. We worked closely with Valuation Services,
   BLM, and NPS in our attempts to quantify potential revenue enhancement,
   and have edited the “Methodology” subsection to provide more information.

   The Department also expressed concerns that our revenue estimates were the
   sole basis for our conclusions. We based our conclusions and
   recommendations upon the bulleted items listed on page 4. These items are
   extensively discussed throughout the “Findings” section.

   The Department said the report did not suitably address regulatory constraints,
   in particular constraints stemming from the Energy Policy Act of 2005

                                                                                 24
(EPAct). The OIG discussed the ROW provisions of the EPAct with BLM.
We understand that the EPAct required updating of the existing linear ROW
schedule based upon National Agricultural Statistics Service (NASS) data. We
do not believe, however, that the EPAct provisions preclude enhancing the
schedule by using value and volume attributes in conjunction with the existing
NASS basis. We note that the EPAct provisions apply only to linear ROW and
not to communications sites.

OIG Analysis of the Department’s Technical Comments
The Department provided technical comments, keyed to the pages of our draft
report.

Page 1
The Department said: “It is not clear whether ‘market value’ and similar terms
throughout the draft report are intended to be synonymous, or consistent with,
the term ‘fair market value’ in FLPMA [Federal Land Policy Management
Act] and the MLA [Mineral Leasing Act].”

OIG Analysis. Different statutes use different terms for market value. We
used these terms synonymously in our report, but they are used in phrases that
emphasize issues pertinent to the specific finding under discussion such as
considering the type and volume of service authorized, or using comparable
data in determining market value.

Page 2
The Department noted that our list of legal authorities for ROW was not
comprehensive.

OIG Analysis. We edited the text of the report on page 2, noting that other
statutes also confer authority to the Department to manage ROW.

Pages 4, 5
The Department expressed concerns with the method for comparing Federal
ROW with nearby State, local, or private ROW.

OIG Analysis. See the “Methodology” subsection in appendix 1, as well as
“OIG Analysis of the Department’s General Comments,” second paragraph,
above.

Page 6
The Department provided background information on the development of, and
revisions to, BLM’s rent schedule for linear ROW and its use of NASS data. It
also pointed out that approximately half of linear ROW are exempt from rent
collection for a variety of reasons.




                                                                              25
OIG Analysis. We found the background information to be consistent with
our understanding of BLM’s rent schedule for linear ROW and its application.
See also “OIG Analysis of the Department’s General Comments,” first and
second paragraphs, above.

Page 8
The Department provided background information on the development of, and
revisions to, BLM’s rent schedule for communications sites.

OIG Analysis. We found the background information to be consistent with
our understanding of BLM’s rent schedule for communications sites and its
application.

Page 12
The Department noted that the report was “unclear on the specifics of back
rental collections.”

OIG Analysis. Our audit objectives did not include specific testing for, or
quantification of, uncollected back rents. Our finding pertains only to a
concern that field personnel do not have guidance on how to calculate, or
when and how to collect, back rents and related interest.

Page 13
The Department provided information on the collection of rents for
colocators.

OIG Analysis. See our analysis of BLM’s response to Recommendation 15.

Page 14
The Department noted that our draft report indicated that “NPS received
additional funding” for ROW management, and informed us that, instead,
“NPS has reallocated funds from other sources.”

OIG Analysis. We appreciate the clarification, and have edited our report
accordingly.




                                                                              26
Appendix 1: Scope and Methodology
Scope
The scope of our audit covered the administration and valuation of linear and
communications sites rights-of-way (ROW). We conducted fieldwork from
February 2010 through April 2011.

The audit survey included the Department of the Interior’s Office of Valuation
Services, Office of Appraisal Services for the Office of the Special Trustee for
American Indians, Bureau of Land Management (BLM), Bureau of Indian Affairs
(BIA), U.S. Fish and Wildlife Service (FWS), National Park Service (NPS), and
Bureau of Reclamation (USBR). Because FWS and USBR had a limited number
of ROW, we eliminated them from our audit fieldwork. We focused on ROW
activities for fiscal years 2009 and 2010 but expanded our review to include other
fiscal years as necessary.

Methodology
To accomplish the audit’s objective, we—

   •   gathered general, administrative, and background information to provide a
       working knowledge of the linear and communications ROW programs at
       the Department and bureau levels;
   •   identified and reviewed policies and procedures related to linear and
       communications site ROW;
   •   conducted site visits to interview lands and realty personnel about their
       work on linear and communications site ROW;
   •   reviewed a small number of linear and communications ROW at BLM and
       BIA to gain an understanding of ROW management practices in the field;
   •   contacted other government and non-government organizations to identify
       their methods for determining linear and communications site ROW;
   •   obtained comparable ROW rent information from various government and
       non-government entities; and
   •   compared ROW rates obtained from private and other governments with
       BLM’s rates on similar ROW to estimate revenue opportunities. We
       provided these examples and comparable rates to BLM for its review.

We conducted this audit in accordance with generally accepted U.S. Government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit’s objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




                                                                                27
Limitations
   • We did not evaluate controls over day-to-day ROW management activities
      such as application processing, administrative cost recovery, bonding, rent
      collection and accounting, or inspections.
   • We did not review data reliability of information systems such as BLM’s
      Legacy Rehost 2000 System or BIA’s Trust Asset and Accounting
      Management System. In addition, because FWS, NPS, and USBR do not
      have centralized ROW information systems, we relied on their estimates
      of the number of ROW managed.
   • We did not audit third-party ROW market data used in comparing rents,
      but did work with appropriate bureau personnel to validate that selected
      comparisons were reasonable.




                                                                              28
Appendix 2: Organizations Visited or
Contacted
U.S. Department of the Interior
Office of Valuation Services                         Lakewood, CO

Office of the Assistant Secretary—Indian Affairs     Washington, DC
(Indian Energy and Economic Development)

Office of the Special Trustee for American Indians
Office of Appraisal Services                         Albuquerque, NM

Bureau of Land Management
Washington Office                                    Washington, DC
Colorado State Office                                Lakewood, CO
Farmington Field Office                              Farmington, NM
Needles Field Office*                                Needles, CA
Phoenix District Office                              Phoenix, AZ

Bureau of Indian Affairs
Washington Office                                    Washington, DC
Pima Agency                                          Sacaton, AZ
Rocky Mountain Regional Office*                      Billings, MT
Blackfeet Agency*                                    Browning, MT
Southwest Regional Office                            Albuquerque, NM
Southern Pueblos Agency                              Albuquerque, NM
Southern Ute Agency                                  Ignacio, CO

Bureau of Reclamation
Denver Office*                                       Lakewood, CO
Upper Colorado Region*                               Salt Lake City, UT
Mid-Pacific Region*                                  Sacramento, CA

U.S. Fish and Wildlife Service
Washington Office                                    Arlington, VA
Alaska Region*                                       Anchorage, AK
Mountain-Prairie Region                              Lakewood, CO

National Park Service
Washington Office*                                   Washington, DC
Intermountain Region*                                Lakewood, CO
Mojave National Preserve                             Barstow, CA
National Capital Region                              Washington, DC
Pacific West Region*                                 Oakland, CA
Yellowstone National Park*                           Wyoming

                                                                          29
U.S. Department of Agriculture
U.S. Forest Service*                                   Washington, DC

U.S. Department of Justice                             Washington, DC

States and Counties
California State Lands Commission*                     Sacramento, CA
Colorado State Board of Land Commissioners*            Denver, CO
New Mexico State Land Office*                          Santa Fe, NM
Oregon Department of State Lands*                      Salem, OR
Utah Trust Lands*                                      Salt Lake City, UT
Wyoming Office of State Lands & Investments*           Cheyenne, WY
Jefferson County Transportation & Engineering
        Division*                                      Golden, CO
Sweetwater County Engineering Department*              Green River, WY

Additional Organizational Contacts
International Right of Way Association*                Gardena, CA
The Heath Group                                        San Diego, CA
H.C. Peck & Associates, Inc.*                          Denver, CO
Sacramento Regional Transit District*                  Sacramento, CA

*Offices were contacted only; we did not visit them.




                                                                            30
Appendix 3: Potential Additional
Revenues

                                  Estimated Additional Annual
             Issue
                                               Revenue
BLM Linear ROW                 $44 million to $82 million
BLM Communications Site ROW    $33 million
BLM Unreported and Collected
                               $7 million
Communication Site Rents
BLM Service Rent Discounts     $5 million
NPS Uncollected ROW Rents      $5 million
TOTAL                          $94 million to $132 million




                                                                31
Appendix 4: Department’s Response
The Department’s response to the draft report follows on page 33.




                                                                    32
                            THE DEPUTY SECRETARY OF THE INTERIOR
                                             WASHINGTON



                                               JUL 18 2012

Memorandum

To:             Assistant Inspector General for Audits, Inspections, and Evaluations

From:          Deputy Secre~

Subject:        Office of the Inspector General Evaluation Draft Report, Management of Rights-of-
                Way in the U.S. Department of the Interior (Report No. C-IN-MOA-0013-2010)

Thank you for the opportunity to review and comment on the Office of Inspector General (OIG's)
draft report, "Management ofRights-of-Way in the U.S. Department ofthe Interior"(Report
No. C-IN-MOA-0013-2010). The Department of the Interior (DOl) appreciates the continued interest
of the OIG in rights-of-way (ROWs) issued for the use of public lands, and the potential for increasing
revenues.

We appreciate the opportunity to meet informally and facilitate an information exchange between
senior leadership and the OIG's office on this important subject. Attached are comments that our
bureaus prepared to assist in your development of a final report on this matter.

Attachment 1 provides general comments and requests for clarification. Attachment 2 provides
specific responses to each of the recommendations, including a summary of the actions taken or
planned by the BLM, NPS, and the OVS to implement the recommendations. Attachment 3 provides
the technical comments on the report, and Attachment 4 provides the corrective action plans in a table
format.

If you have any questions about this response, please contact LaVanna Stevenson, BLM Audit
Liaison Officer, at (202) 912-7077; Vera Washington, NPS Audit Liaison Officer, at (202) 354-1960;
or Alexandra Lampros, Office of the Secretary Desk Officer, at (202) 208-4427.

Attachments




                                                                                                     33
                                                                                            Attachment 1
                                                                                              Page 1 of2

                                   Department of the Interior
                         General Comments and Requests for Clarification

As the draft report notes, the vast majority of the ROWs granted on the public lands are administered
by the Bureau of Land Management (BLM). Other ROWs are administered by the National Park
Service (NPS), the Bureau of Indian Affairs (BlA), the U.S. Fish & Wildlife Service (FWS), and the
Bureau of Reclamation (BOR). The draft report contains 17 recommendations for improving the
management of ROWs, and we concur with many of the OlG's findings and recommendations.
However, we believe certain aspects of the draft report merit further attention.

We respectfully note that the draft report lacks precision in some areas as to the methodologies and
assumptions underlying valuation estimates, which may affect the cost effectiveness and feasibility of
some ofthe recommendations. In 2011, BLM administered approximately103,800 ROWs. Ofthese,
nearly 100,000 were linear ROWs. Approximately 3,600 were communications sites ROWs, and the
remainder were for other miscellaneous types. Of the approximately 100,000 linear ROWs
administered by the BLM, about half are exempt by statute or regulation from the obligation to pay
rent. It is unclear whether this fact is accounted for in the valuation estimates in the draft report. The
draft report is also not clear as to the methodologies and assumptions used to derive the estimated
values of the DOl ROWs and foregone revenues. For example, the draft report provides examples of
areas where DOl rental fees are lower than those charged by other entities, but the draft report does
not clearly identify how those entities set their rates or whether or how the circumstances surrounding
them are comparable or applicable to the DOl ROWs. The draft report also does not clearly establish
that the cited comparables represent the broad range of ROWs under consideration. It is further
unclear whether the estimates cited in the draft report form the sole basis for the draft report's
conclusions, or whether the draft report relied upon additional assumptions.

Moreover, the report does not address existing regulatory constraints. In particular, Section 367 ofthe
Energy Policy Act of2005 (EPAct) directed the Secretary of the Interior to update the rent schedule as
found in the BLM's regulations at 43 CFR 2806.20, and to revise the per acre rental fee zone schedule
by state, county, and type of linear ROW to reflect current values ofland in each zone. In 2008, the
BLM published a final rule amending its regulations as required by EP Act. In order to establish
current land values, the BLM used National Agricultural Statistics Service (NASS) data to determine
land values for every county. The NASS Census of Agriculture data is published every 5 years and
includes average per acre land and building values by county for each state. The BLM' s 2008
regulations did not provide for individual valuation. The report does not acknowledge these
regulatory constraints. The DOl, however, agrees with the findings in the draft report that there may
be circumstances in which it may be appropriate to use other means of assessing ROW rent values,
including incorporating market value into the rent schedules, or using individual appraisal
mechanisms. The BLM will examine the feasibility of changing its regulations to address these issues
for linear ROWs on the public lands, consistent with other policy objectives advanced by the existing
regulations, such as consistency, predictability, transparency, and cost-effective program
administration.

The BLM regulations governing communications ROWs were revised in 1995 in order to establish a
fair and consistent rent schedule for use by both the BLM and the U.S. Forest Service (FS). The rent
schedule considers two primary factors when establishing communication site rent: (1) the types of
uses and (2) the population of the community served by the ROW. Adoption of the schedule was
                                                                                                       34
                                                                                           Attachment 1
                                                                                             Page 2 of2

anticipated to reduce agency costs, delays, and variability associated with obtaining individual
appraisals as well as reducing the number of disputes regarding rent values. The schedule also allows
for ROW holders to anticipate and budget for changes in rent amounts. We agree with the report,
however, that the inflation-based rent increases do not reflect the higher value for services in the
rapidly expanding wireless communications industry. The BLM will work with the FS to implement
regulatory changes to address this issue.

For all communications site ROWs authorized under the Federal Land Policy and Management Act,
the ROW holder is required to submit an annual statement identifying the tenants and customers in
each facility and their types of uses. In order to ensure customer-provided annual statements are
accurate, the BLM uses a National Project Manager program to conduct compliance examinations of
high priority facilities. As correctly noted on page 11 of the draft report, the BLM annually expends
approximately $30,000 to conduct these reviews. Over this 5-year period, for a cost of approximately
$150,000, the BLM has identified and pursued collection of over $500,000 in rents that were either
incorrectly reported or not reported at all. This return illustrates the importance of conducting regular
on-site reviews of authorizations to ensure uses and corresponding rents are identified and assessed
appropriately. The BLM will continue this practice.

The DOl agrees with the recommendations that the Office of Valuation Services (OVS) should work
with the bureaus toward the goal of establishing Department-wide consistency for ROW rent
valuation based upon actual market values, rent schedules, and the assessment of penalties, where
legally and technically feasible. It is important to keep in mind that the role of OVS is to provide
guidance and support for updating fee schedules to reflect market rent, and to provide direct valuations
in those rare instances where the schedule may not be appropriate. The roles ofBLM and other
bureaus in granting and approving ROWs are separate and distinct functions, and are authorized under
separate statutory and regulatory authorities. The OVS supports development of the schedules and
provides valuations to assist the bureaus in the negotiation of fees, under applicable legal authority.




                                                                                                      35
                                                                                            Attachment 2
                                                                                              Page 1 of9

                               Department of the Interior
 Response to the Recommendations included in the Office of the Inspector General Draft Audit
        Report, Management of Rights-of-Way in the U.S. Department ofthe Interior
                                (C-IN-MOA-0013-2010)

Recommendation 1: Following "Uniform Appraisal Standards," Valuation Services should define
market value of ROW to include the value of the right or use granted.

Response: The Uniform Appraisal Standards for Federal Land Acquisitions (UASFLA) addresses
the conveyance of easements from the Government but is silent on the transfer of rights-of-way
(ROW) from the Government. However, consistent with the intent of the UASFLA and the Uniform
Standards of Professional Appraisal Practice (USPAP), which are the standards governing valuation
services, the Office of Valuation Services (OVS) believes the more appropriate definition for the
valuation of the rights granted under a ROW is "market rent" as defined by the Dictionary ofReal
Estate Appraisal, Fourth Edition. Market rent is consistent with the use of market value, but
recognizes the nature of a ROW versus a conveyance of an easement. The OVS will implement the
recommendation by issuing a guide note to the OVS appraisal staff based on the following definition:

        "The most probable rent that a property should bring in a competitive and open market
        reflecting all conditions and restrictions of the specified lease agreement including term, rental
        adjustment and revaluation, permitted uses, use restrictions, and expense obligations; the
        lessee and lessor each acting prudently and knowledgably, and assuming consummation of the
        lease contract as of a specified date ... "

While OVS believes this is a more appropriate definition of"market value," there is substantial
research to be completed prior to making changes to the regulations ofBLM and other DOl agencies.
The Department will examine the feasibility of changing existing regulatory and other authorities to
incorporate market value in its ROW regulations, in light ofBLM's current authorities calling for fair
market value under the Federal Land Policy and Management Act (FLPMA) and fair market rental
value under the Mineral Leasing Act (MLA).

Target Date: December 31, 2012.

Responsible Official: Tanya Henderson, Deputy Director/Chief Appraiser, Office of Valuation
Services.

Recommendation 2: Valuation Services and Appraisal Services should create and maintain a
database of comparable ROW information.

Response: The Office of Appraisal Services (OAS) presently maintains a database of ROW
information from work performed under contract to the Bureau of Indian Affairs and tribal nations.
The OVS will consult with the Office of Appraisal Services (OAS) to establish a consistent database
format for the data.
                                                                                          Attachment 2
                                                                                            Page2 of9


The OVS will also work with the BLM to identifY and address any existing data needs for current
BLM ROW grants under existing authorities. The OVS will develop a database parallel to the OAS
database pending development of cost estimates and the approval of funding. The OVS will also
coordinate with the BLM regarding regulatory changes BLM makes applicable to ROWs to address
future data requirements for comparable information, subject to available funding. These projects
may take an extended period of time to develop given the variety of data sources, staff resources, and
funding needed to conduct this work.

Target Date: December 31, 2014.

Responsible Official: John W. Ross, Director, Office ofValuation Services.

Recommendation 3: Valuation Services should establish criteria to prioritize ROW using market
considerations including the value and volume of the service authorized.

Response: While BLM has operated effectively within current regulatory authorities, the
recommendations in this draft report suggest consideration of changes that would amend existing
regulations and authorities of the BLM and other bureaus. Should the bureau regulations be changed
to prioritize ROWs using market considerations including the value and volume of the service
authorized, OVS has expertise in gathering and evaluating market consideration and will assist the
Client Bureaus in identifYing high priority ROWs due to high market values in a given area or volume
of service. In some cases in the past, OVS completed appraisals on ROWs that did not conform to
the existing schedules due to the unique nature of the ROW, the high value area that the ROW crosses,
or a combination of factors that led to the Client Bureau requesting a site-specific appraisal. Through
the consultation process that is incorporated into the Interior Valuation Information System, the Client
Bureaus can currently request this type of assistance from OVS in most of the Western states where
these ROWs are located.

Target Date: December 31, 2014.

Responsible Official: Tanya Henderson, Deputy Director/Chief Appraiser, Office of Valuation
Services.

Recommendation 4: Valuation Services should perform high priority, individual valuations as
allowed, given their resources.

Response: At present, OVS has the staff capacity to complete a limited number of individual
valuations for use by Client Bureaus in negotiating ROW transactions. However, developing and
maintaining the data necessary to carry out market valuations for ROW rents has not been a priority
for the OVS due to the primary funding source for OVS being the Land and Water Conservation
Fund, which provides funding for land acquisitions. In addition, the BLM, which has the largest
number of ROWs in the DOl, does not have regulatory authority at this time to conduct individual




                                                                                                    37
                                                                                             Attachment 2
                                                                                               Page 3 of9

appraisals on high value ROWs. Therefore OVS has not requested or been provided funding for these
purposes.

With authority for the OVS Chief Appraiser to establish valuation policy across the DOl, and the
move from a regional to client team structure, OVS can effectively support the Client Bureaus, within
the Client Bureau's legal authorities, in ROW valuation. If funding becomes available through
legislative authority for retention of a portion of the rental fees, cost recovery from the applicant, or
by direct appropriation, OVS will establish a discipline-specific team to handle the high value ROWs
as well as oversee the development and the maintenance of a comparable database. The discipline-
specific team would be responsible for providing the Contracting Officer's Technical Representative
and conducting the technical valuation review for all ROW valuations.

Target Date: June 30,2015.

Responsible Official: Tanya Henderson, Deputy Director/Chief Appraiser, Office of Valuation
Services.

Recommendation 5: Valuation Services should develop and implement guidance and training
requirements for staff to conduct individual ROW valuations.

Response: We agree that this is an area on which OVS can capitalize through the expertise of its
current staff and the recruitment of additional staff at the journeyman level. Additional staff training is
available through the International Right of Way Association as well as other professional appraisal
organizations such as the American Society of Farm Managers and Rural Appraisers and the
Appraisal Institute. A large portion of the OVS staffhas experience in the appraisal ofROWs and can
assist with internal guidance and establishing training requirements for OVS appraisers, as necessary.
The OVS will coordinate with Client Bureaus to assess current needs, as well as future needs based on
potential regulatory changes as appropriate.

Target Date: June 30,2015.

Responsible Official: Tanya Henderson, Deputy Director/Chief Appraiser, Office of Valuation
Services.

Recommendation 6: The BLM should revise its linear rent schedule and include provisions to
periodically update the schedule to reflect current market value.

Response: The BLM will consult with the Solicitor's Office to review appropriate statutes,
regulations and policies. The BLM will meet with the OVS and U.S. Forest Service (FS) to clarify the
scope of appropriate changes. If appropriate, the BLM will publish a draft Advance Notice of
Proposed Rulemaking (ANPR). The ANPR will be used to gather public and stakeholder feedback to
inform the appropriate policy direction for publishing a final rule. The BLM will determine the most
effective and efficient process to modify the schedule to capture additional rents for high-valued




                                                                                                       38
                                                                                         Attachment 2
                                                                                           Page4 of9

ROWs such as large diameter pipelines, high-voltage transmission lines, and large-capacity fiber optic
telecommunication lines. The modifications would include a process for periodic updates.

Section 367 ofthe EPAct of2005 directed the Secretary ofthe Interior to update the per acre rent
schedule found in 43 CFR 2806.20 and revise the per acre rental fee zone value schedule by
state, county, and type of linear ROW use to reflect current land values in each zone.

In 2008, the BLM published a final rule amending its regulations to update the rent schedule for
ROWs issued under FLPMA and Mineral Leasing Act (MLA), but the regulations did not allow for
individual valuation even if the market rental value was potentially higher than the schedule value.
The BLM will consider the scope of existing regulations and policy objectives as well as the overall
efficiency of this undertaking on cost-effective program administration.

The U.S. Forest Service (FS) has adopted the BLM's linear rent schedule; therefore, the BLM will
coordinate this process with the DOl as well as the FS. The BLM would provide public and
stakeholder engagement opportunities as part of the rulemaking process.

Target Date: The BLM will meet with OVS and FS by November 30, 2012. If appropriate, the
BLM will publish an Advanced Notice of Proposed Rulemaking in the Federal Register by
March 31,2013. If appropriate, the BLM will publish a final rule in the Federal Register by
December 15,2014.

Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management.

Recommendation 7: Valuation Services should work with BLM to implement linear rent schedules
for Department-wide use with provisions to periodically update the schedules.

Response: The OVS looks forward to working with the BLM and other bureaus to evaluate and,
consistent with legal authorities, implement linear rent schedules consistently across the DOl, and to
establish a time period for completing periodic market analyses to ensure that rents appropriately
reflect market conditions. The OVS is prepared to provide assistance to determine the most
appropriate methodology for establishing schedules, consistent with the existing legal authorities of
Client Bureaus, as well as any potential regulatory changes. The variables may include location, type
of use (pipeline vs. fiber optic vs. power line), and throughput of commodity for the line. The
schedules may need to be based on a countywide, statewide, regional, or national basis depending on
the type of ROW. As current regulatory and/or statutory authorities may not authorize application of
all of these variables in administering ROWs on public lands, OVS will work with the BLM and the
DOl to help determine appropriate criteria for assessing market area for a given ROW.

Target Date: December 31, 2014.

Responsible Official: Tanya Henderson, Deputy Director/Chief Appraiser, Office ofValuation
Services.
                                                                                       Attachment 2
                                                                                         Page 5 of9


Recommendation 8: The BLM should revise its communications site rent schedule and include
provisions to periodically update the schedule to reflect current market value.

Response: The BLM will consult with the Solicitor's Office to review appropriate statutes,
regulations and policies. The BLM will meet with the OVS and FS to clarifY the scope of appropriate
changes. If appropriate, the BLM will publish an Advance Notice of Proposed Rulemaking (ANPR).
The ANPR will be used to gather public and stakeholder feedback to inform the appropriate policy
direction for publishing a final rule.

The BLM has updated the current schedule annually based on changes in the Conswner Price Index,
Urban Consumer (CPI-U). However, the BLM recognizes that the underlying market values are
based upon stale valuation.

The BLM will consider modifYing the schedule to capture additional rents based on current market
value. The modifications will include a process for periodic updates.

The BLM will consider updating the schedule in coordination with the DOl's OVS as well as the FS
and will include public and stakeholder engagement opportunities.

The FS has adopted the BLM's communication uses rent schedule; therefore updates of this schedule
will affect the FS and applicants for ROWs on the National Forest System.

Target Date: The BLM will consult with the Solicitor's Office by September 30,2012. The BLM
will meet with OVS and FS by November 30, 2012. If appropriate, the BLM will publish an
Advanced Notice of Proposed Rulemaking in the Federal Register by March 31, 2013. If appropriate,
the BLM will publish a final rule in the Federal Register by December 15,2014.

Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management.

Recommendation 9: Valuation Services should work with BLM to implement communications rent
schedules for Department-wide use with provisions to periodically update the schedules.

Response: As with the linear rent schedules as discussed in response to Recommendation 7, OVS
will work with the BLM and other bureaus to evaluate and, consistent with legal authorities,
implement communications rent schedules consistently across DOl, and to establish a time period for
completing periodic market analyses to ensure that rents are in step with market conditions. The
communications site rent schedules would likely be impacted by similar factors as the linear rent
schedules regarding location, type of use, etc., and OVS will work with the BLM and other bureaus to
identifY these variables and determine the proper market area for application of the schedule,
consistent with legal authorities of Client Bureaus.

As previously mentioned, the schedules may need to be based on a countywide, statewide, regional, or
national basis depending on the type of communication use. The OVS will work with the BLM and




                                                                                                   40
                                                                                          Attachment 2
                                                                                            Page 6 of9

the DOl to determine the market area for the communications sites, consistent with applicable legal
authority.

Target Date: December 31, 2014.

Responsible Official: Tanya Henderson, Deputy Director/Chief Appraiser, Office of Valuation
Services.

Recommendation 10: Valuation Services should work with BLM to develop and implement
procedures for Department-wide periodic reevaluations of ROW grants, with authority to update
rental rates to reflect current market values.

Response: By assisting the BLM and the DOl with developing methodologies for periodic
reevaluations and updates of the linear and communications rent schedules, OVS will be able to assist
in the development of a Department-wide re-evaluation procedure, consistent with applicable legal
authorities. The OVS will also assist through its Quality Assurance Division by conducting periodic
audits of ROW grants to determine whether rental rates are still representative of market value after
their initial implementation.

Due to the different authorities that authorize the ROW grants in the various bureaus, there may be
conflict that will have to be resolved through rule making or other administrative procedures. The
OVS currently provides valuation support to four bureaus within Interior (BLM, BOR, FWS, and
NPS) and is uniquely positioned to assist the DOl in the development and the implementation of the
periodic re-evaluation of these grants.

Target Date: January 1, 2015.

Responsible Official: Tanya Henderson, Deputy Director/Chief Appraiser, Office of Valuation
Services.

Recommendation 11: The BLM should reduce or eliminate the market value threshold required to
adjust rents on ROW for communications sites.

Response: The BLM will consult with the Solicitor's Office to review appropriate statutes,
regulations and policies. The BLM will meet with the OVS and Forest Service to clarify the scope of
appropriate changes. If appropriate, the BLM will publish a draft ANPR. The ANPR will be used to
gather public and stakeholder feedback to inform the appropriate policy direction for publishing a final
rule.

The BLM will work with the OVS and the FS to reassess whether the existing 5 percent threshold
should be reduced or eliminated based on current market conditions and other relevant factors.

Target Date: The BLM will consult with the Solicitor's Office by September 30,2012. The BLM
will meet with OVS and FS by November 30, 2012. If appropriate, the BLM will publish an ANPR




                                                                                                      41
                                                                                           Attachment 2
                                                                                             Page 7 of9

in the Federal Register by March 31, 2013. If appropriate, the BLM will publish a final rule in the
Federal Register by December 15,2014.

Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management.

Recommendation 12: The BLM and other bureaus with ROW responsibilities should explore
seeking authority to retain a percentage of the revenues recovered from reviews that identifY unpaid
rent from unreported services. Bureaus could use these additional revenues to fund additional
revtews.

Response: The Office of Budget will work with the Solicitor, the Office of Congressional and
Legislative Affairs, and the Office of Management and Budget to explore seeking authority to retain a
percentage of the rents identified during the on-site review process to fund additional reviews and
training.

Target Date: September 30,2013.

Responsible Official: Denise Flanagan, Office of Budget.

Recommendation 13: The Office of Policy, Management and Budget should work with bureaus
with ROW responsibilities to implement penalties for grantees that do not report additional services
and fail to pay rents.

Response: There is substantial research to be completed prior to the implementation of the penalty
programs to ensure that appropriate authorities are in place, and that these programs can be designed
and implemented for each bureau. As an adjunct to the working group identified in
Recommendations 7, 9, and 10, OVS will coordinate and convene a corollary working group to
address this recommendation. This working group will identifY authorities that may permit penalties
and review current penalty programs in bureaus, if any. Once those steps are completed, the working
group will develop recommendations for the implementation of penalties at each bureau, and the
bureaus will be charged to implement the penalty programs and prepare a report of their conclusions.

Target Date: June 30,2015.

Responsible Official: John W. Ross, Director, Office ofValuation Services.

Recommendation 14: The Office of Policy, Management and Budget should work with BLM to
develop and implement Department-wide procedures for calculating and collecting unpaid back rents.

Response: Similar to the response to Recommendation 13, there is foundational research to be
completed prior to crafting Department-wide procedures for the calculation and the collection of
unpaid back rents. However, this work could be completed by a corollary working group by
identifYing authorities that may permit collection of back rents and reviewing current rent collections




                                                                                                       42
                                                                                           Attachment 2
                                                                                             Page 8 of9

programs in bureaus, if any. Ultimately, the working group will develop recommendations for the
implementation of back rent collection program and the bureaus will be charged to implement
procedures in each of their bureaus.

Target Date: June 30,2015.

Responsible Official: John W. Ross, Director, Office ofValuation Services.

Recommendation 15: The BLM should reduce or eliminate the 75 percent discount for additional
grantee and co-locator ROW site services, or justify any discount provided.

Response: The BLM will consult with the Solicitor's Office to review appropriate statutes,
regulations, and policies. The BLM will meet with the OVS and FS to clarify the scope of appropriate
changes. If appropriate, the BLM will publish an ANPR. The ANPR will be used to gather public
and stakeholder feedback to inform the appropriate policy direction for publishing a fmal rule.

Under existing regulations, the BLM uses the schedule to determine the primary use of each facility
and assesses an additional amount for other users subject to rent (tenants). The base rent consists of
100 percent of the use that generates the highest rent on the schedule of all uses in the facility,
excluding those uses that would qualify for rent exemptions or waivers. Additional tenants are
charged 25 percent each of their appropriate rent from the schedule. This approach results in the
perceived "75 percent discount" as indicated in the report.

The existing approach was implemented to avoid the BLM having to keep track of rents received
from tenants in each facility. The approach responded to specific comments received during the
rulemaking process that it was not a widespread practice at that time for landowners to charge a
percentage of gross rent from tenants. The final rule also provided the BLM authorized officer ample
discretion to use other methods to set rental payments.

The BLM agrees to re-evaluate the current practice of charging additional tenants 25 percent of the
regular schedule rent based on current market conditions and other relevant factors.

Target Date: The BLM will consult with the Solicitor's Office by September 30,2012. The BLM
will meet with OVS and FS by November 30, 2012. If appropriate, the BLM will publish an ANPR
in the Federal Register by March 31, 2013. If appropriate, the BLM will publish a fmal rule in the
Federal Register by December 15, 2014.

Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty Management.

Recommendation 16: The NPS should continue to implement a ROW management program that
includes completing an inventory of its ROW and assigning qualified realty staff.




                                                                                                      43
                                                                                          Attachment 2
                                                                                            Page 9 of9

Response: The NPS appreciates the comments from the OIG report and will study the
recommendations as they pertain to the NPS ROW program. We are moving forward to use
reallocated funds to strengthen our ROW management program. We are convening a nationwide
work group to identify and initiate priority tasks.

The NPS recognizes the need for an inventory of ROW permits on park lands and agrees that an
inventory would be invaluable. As noted in the report, NPS does not currently maintain a centralized
database with information on current ROW permits. The Agency has just begun to evaluate the scope
of the project. As the scale of the project becomes clearer and the scope of the project is defined, the
target dates may need to be revised. The NPS has meetings planned for Summer 2012 to begin
studying the development of a system to inventory right-of-way permits.

Target Date: March 29,2013 for data input;
             October 31, 2014 for 50 percent of parks entered into database; and
             October 31, 2015 for 100 percent parks entered into database.

Responsible Official: Victor Knox, Associate Director, Park Planning, Facilities and Lands.

Recommendation 17: Appraisal Services should consult with the Office of the Solicitor to determine
which recommendations in this report are applicable to Indian Affairs.

Response: The scope of work will include a collaborative effort with the Office of Solicitor to
evaluate and determine which recommendations in this report are applicable to Indian Affairs.
Consultation with the BIA Division of Real Estate Services may also be necessary to determine the
applicability of realty requirements identified as a recommendation in the report.

Target Date: December 31, 2013.

Responsible Official: Eldred Lesansee, Director, Office of Appraisal Services.




                                                                                                     44
                                                                                           Attachment 3
                                                                                             Page 1 of4



Technical Comments:

Page 1: Within the DOl, each bureau has differing authorities with respect to the authorization and
administration of ROWs. The regulations and policies for each bureau use different terminologies to
refer to actions within the right-of-way process. Terminology in the report and some assumptions
apparently based on that terminology are imprecise, which has the potential to impact the substance
and some findings in this report. For example, the BLM has developed rent schedules to collect "fair
market value" rent as required by FLPMA and the MLA. On page 3, second full paragraph, the report
refers to "current market value based on comparable rents." On page 4, second full paragraph, the
report refers to "market value." On page 8, first full paragraph, the report refers to "current market
value and volume of service." It is not clear whether "market value" and similar terms throughout the
draft report are intended to be synonymous, or consistent with, the term "fair market value" in
FLPMA and the MLA.

Page 2, fourth full paragraph: The legal authorities used by the NPS to authorize ROW,
16 USC 5 & 79 are not included. We do not feel that the citation needs to be specifically mentioned,
but suggest that the list should be edited to show that it is not all inclusive.

Page 4, first full paragraph: The draft report provides an estimate of $100 million in additional rents
that could be collected annually by BLM and NPS. The report is unclear as to the methodologies and
assumptions used to arrive at this number. The draft report suggests that it considered information
obtained through internet searches and from a company specializing in land valuation (p.5); from state
and local government, Indian and private lands (p.6) and possibly other sources (see, e.g. pp. 7-8, 9,
13 and 15). The report does not always clearly identify the entity issuing the comparable ROW, nor
does it articulate how values were obtained for those ROWs. The draft report also does not clearly
establish that the cited comparables are representative of the broad range of Federal ROWs under
consideration. This makes it difficult to ascertain fully the extent to which they are in fact comparable
to Federal ROWs. This question would apply to estimates throughout the draft report of additional
rents that might be achieved on Federal ROWs (see, e.g. p. 6, first and second full paragraphs; and p.
8, first full paragraph).

Page 5, second full paragraph: As discussed above, the draft report states comparable market data was
obtained from internet searches and from a company specializing in land valuation. It is unclear if the
private market data includes authorizations that are similar in scope, location, and terms and
conditions to authorizations issued by DOl agencies. For example, BLM issues ROW that are
nonexclusive and allow a specific use for a specified period oftime. The BLM ROWs also include a
variety of terms and conditions based on agency guidance and local land use plans. Private easements
can convey greater rights such as an exclusive use, perpetual term or they may allow upgrades without
additional approval.

Page 6, second full paragraph: The BLM acknowledges the linear rent schedule does not set rates
based on the market value and volume of products authorized. Title V ofFLPMA and Section 28 of




                                                                                                      45
                                                                                            Attachment 3
                                                                                              Page 2 of4


the MLA require the holder of a ROW grant to pay annually in advance the fair market value to
occupy, use, or traverse public lands for facilities such as power lines, pipelines, roads and wireless
telecommunication uses.

The BLM initially developed a regulatory schedule in 1987 to establish the fair market value of rents
for linear ROW. The rent schedule covered most but not all linear ROW granted under FLPMA and
MLA. The schedule was established to minimize the need for individual real estate appraisals for
each ROW as well as to avoid the costs, delays, and unpredictability ofthe appraisal process. Use of a
schedule was a highly efficient method for administering a high volume of authorizations and
provided certainty for grant holders so that they could budget in advance for future rents.

The BLM revised its linear rent schedule in a final rule which became effective on December 1, 2008.
These revisions were required by Section 367 of the EPAct which directed the Secretary ofthe
Interior to update the schedule in effect on the date of enactment of the EP Act , and to revise the per
acre rental fee zone value schedule by state, county, and type oflinear right-of-way use to reflect
current values ofland in each zone. The pre-2008 regulations allowed the BLM to use an alternate to
the schedule to calculate rent, if the rent determined by a comparable commercial practice or an
appraisal would be 10 or more times the rent from the schedule. The regulations promulgated in 2008
did not allow individual valuations based on land values or volume of products.

In accordance with the EPAct, the regulations did update the land values that are the basis for the rent
calculation based in part on land values determined in the Department of Agriculture's National
Agricultural Statistics Service (NASS) census. The NASS census estimates the value of agricultural
land and buildings in each county of the United States. Use of this published information eliminates
the need to value land in each location. The NASS census was conducted in 2002 and 2007. The
BLM's rent schedule was based on the 2002 NASS census for the years 2009 through 2015. The
BLM used the 2007 NASS census data to reassign counties to appropriate zones for the years 2011
through 2015.

The regulations also provide for periodic updates of the land value. The BLM expects the 2012
NASS census data to be available in early 2014, and at that time, BLM would anticipate adjusting the
per acre rent values for each zone, revise the number of zones and the per acre zone values, and
reassign counties among zones, if appropriate based on the census information.

The OIG report does not specifically acknowledge these regulatory requirements.

The FS has adopted the BLM' s linear rent schedule; therefore, updates of this schedule will affect the
FS and applicants for ROWs on the National Forest System.

In FY 2007, the BLM administered approximately 96,000 ROW and collected approximately $20.6
million in rent. By contrast, in FY 2011 the BLM administered approximately 103,800 ROW and
collected approximately $52.5 million in rent. This represents an increase in rent collections of almost




                                                                                                          46
                                                                                          Attachment 3
                                                                                            Page 3 of4


$32 million in 2011, compared to the amount collected in FY 2007, the last year to use the prior rent
schedules.

Approximately half of all active linear ROWs, are exempted from the obligation to pay rent.
Some electric or telephone facilities are exempted from rent payments by statute. In addition, a
Federal, state, or local government, or its agent, is exempted from rent payments by regulations
(except in certain circumstances). The ROWs are also exempted from rent payments if they are
issued under the authority of a statute that does not allow the BLM to charge rent. The report
does not indicate if this fact was taken into account when estimating the amount of additional
rent the BLM could collect.

Page 8, first full paragraph: Under existing regulations 43 CFR 2806.30, the BLM schedule for
communication site ROWs is based on nine population strata, as depicted in the most recent version of
the Ranally Metro Area (RMA) Population Ranking, and the type of communication use or uses for
which the BLM normally grants communication site ROW. The BLM annually updates the schedule
based on two sources: the U.S. Department of Labor Consumer Price Index for all Urban Consumers,
U.S. City Average (CPI-U) as of July of each year and the RMA population ranking. Adoption of the
schedule was anticipated to reduce Agency costs, delays, and variability associated with obtaining
individual appraisals as well as reducing the number of disputes regarding rent values.

In 1992, Congress directed the BLM and the FS to jointly establish a broad-based advisory group
composed of representatives from the broadcast industry and the two Agencies to review
recommendations on acceptable criteria for determining fair market value. The committee
recommended the use of a schedule instead of individual appraisals for determining rental fees. The
BLM fmal rule for rental schedule for communication site uses was published on November 13, 1995.
These revisions establish a consistent approach for determining rental payments for various
communication uses, based on the population of the community nearest the site and reflected fair
market value as required by Title V ofFLPMA. The final rule encourages tenants in a
communication facility to consolidate their separate authorizations under one authorization, reducing
billing costs and minimizing Agency involvement in managing use and occupancy of the facility. The
schedule adopted in 1995 represented BLM's interpretation offair market value rent at that time.
Users are encouraged to co-locate within facilities to minimize the number of individual facilities at
each site or mountain top. The BLM began using communication use leases which included
provisions for sub-leasing space to other users within the same facility.

For all communications site ROWs authorized under FLPMA, the ROW holder is required to submit
an annual statement identifying the tenants and customers in each facility and their types of uses. In
order to ensure customer-provided annual statements are accurate, the BLM uses a National Project
Manager program to conduct compliance examinations of high priority facilities. As correctly noted
on page 11 of the draft report, the BLM annually expends approximately $30,000 to conduct these
reviews but has identified and pursued collection of over $500,000 in rents over this 5 year period,
which were either incorrectly reported or not reported at all.




                                                                                                    47
                                                                                            Attachment 3
                                                                                              Page4 of4




Page 12, full paragraph: The report discusses collection of back rent, in reference to unpaid ROW
rents and how to calculate the back rental amount. However, the draft report is unclear on the
specifics of back rental collections.

Page 13, first full paragraph: Under existing regulations for communications sites ROWs, the BLM
uses the schedule to determine the appropriate base rent for the primary use of each facility. The
BLM then assesses an additional amount for all other co-users (tenants) subject to rent. The base rent
consists of 100 percent of the use that generates the highest rent on the schedule of all uses in the
facility, excluding those uses that would qualify for rent exemptions or waivers. Additional tenants
are charged 25 percent each of their appropriate rent from the schedule. This approach results in the
perceived "75 percent discount" as indicated in the draft report.

The existing approach was done to avoid the BLM having to keep track of rents received from tenants
in each facility. The approach responded to specific comments received during the rulemaking
process that it was not a widespread practice at that time for landowners to charge a percentage of
gross rent from tenants. The fmal rule also provided the BLM authorized officer ample discretion to
use other methods to set rental payments.

Page 14, fifth paragraph, third sentence: We are requesting for the following sentence to be clarified:
"In 2012 NPS received additional funding to pay for realty specialist under the Park Protection budget
subactivity.... " While it is correct that the NPS requested funds to pay for additional realty specialist
to assistance with right-of-way application processing and other land management issues, such as
encroachment and unauthorized uses, the money was not appropriated. The NPS has reallocated
funds from other sources to pay for the positions.




                                                                                                       48
                                                                                                                                                       Attachment 4
                                                                                                                                                        Page 1 of13




                                                                                                                                                                           49
                                    Management ofRigbts-of-Way in the U.S. DOl (Report No. C-IN-MOA-0013-2010)

                                                                             Corrective Action Plan

                                                                                               Overall
                                                         Corrective                                         Milestone Target       Responsible
     Recommendation                                                                            Target                                                  Comments
                                                          Action                                                Date(s)              Official
                                                                                                Date
I. Following "Uniform               Implement the following definition, pursuant to            12/31/2012                                          Under 602 DM I, the
Appraisal Standards,"               602 DM 1, through a guide note to OVS appraisal                                                                OVS Chief Appraiser
Valuation Services should           staff:                                                                                                         is empowered to
define market value of ROW          "The most probable rent that a property should bring in                                                        issue guidance to
to include the value of the right   a competitive and open market reflecting all conditions                                                        OVS and Department
or use granted.                     and restrictions of the specified lease agreement                                                              staff involved in the
                                    including term, rental adjustment and revaluation,                                                             appraisal process
                                    permitted uses, use restrictions, and expense                                                                  regarding appraisal
                                    obligations; the lessee and lessor each acting prudently                                                       policy for DOl.
                                    and knowledgably, and assuming consummation of the
                                    lease contract as of a specified date .. ."
                                    • Draft guide note, circulate for review.                               •   10/01/2012     •    Ed Stehouwer
                                    • Finalize guide note and issue to staff.                               •   12/31/2012     •    Tanya
                                                                                                                                    Henderson
2. Valuation Services and           This project may take an extended period of time to        12/3112014                                          The Office of
Appraisal Services should           develop given data sources, staff resources and                                                                Appraisal Services
create and maintain a database      funding.                                                                                                       presently maintains a
of comparable ROW                   • Consultation with OAS on database format                              •   10/0112012     •    John Ross      database of ROW
information.                        • Consultation with BLM on existing data                                •   10/01 /2012    •    John Ross      information from
                                    • Development of requirements document and                              •   03/3112012     •    John           work performed
                                         alternatives for building the database (buy data,                                          Ross/Tanya     under contract to BIA
                                         grow organically, etc.).                                                                   Henderson      and tribal nations.
                                                                                                                                                   OVS will consult
                                    • Request for funding and staffing                                      •   06/0112013     •    John Ross
                                                                                                                                                   with OAS to establish
                                    • Implementation.                                                       •   12/3112014     •    Tanya
                                                                                                                                                   a consistent form and
                                                                                                                                    Henderson
                                                                                                                                                   format for data, work
                                                                                                                                                   with BLM and other
                                                                                                                                                   Client Bureaus to
                                                                                                                                                      Attachment 4
                                                                                                                                                       Page2 of13




                                                                                                                                                                           50
                                                                                              Overall
                                                        Corrective                                         Milestone Target       Responsible
     Recommendation                                                                           Target                                                 Comments
                                                         Action                                                Date(s)              Official
                                                                                               Date
                                                                                                                                                 identify any existing
                                                                                                                                                 data for current ROW
                                                                                                                                                 leases, and will
                                                                                                                                                 develop a database
                                                                                                                                                 parallel to the OAS
                                                                                                                                                 database pending cost
                                                                                                                                                 and approval of
                                                                                                                                                 funding.
3. Valuation Services should       The ROW assignments may be high priority either due        12/31/2012                                         The OVS is available
establish criteria to prioritize   to high market values in a given area or volume of                                                            to assist BLM and
ROW using market                   service. Through the consultation process that is                                                             other Client Bureaus
considerations including the       incorporated into the Interior Valuation Information                                                          in identifying high
value and the volume of            System (IVIS), Client Bureaus can currently request                                                           priority ROWs
service authorized.                this type of assistance from OVS. The OVS has                                                                 consistent with
                                   expertise in gathering and evaluating this type of data.                                                      applicable law and
                                   • Develop a criteria document in coordination with                      •   12/31/2012     •    Tim Hansen,   subject to funding
                                         BLM, consistent with applicable legal authority,                                          BLM Client    and staff resources.
                                         specifying when valuations are advisable rather                                           Service       In some cases in the
                                         than use of the fee schedule.                                                             Manager       past, OVS has
                                   • Other infrastructure for handling ROW valuations                                                            completed appraisals
                                         is already in place (!VIS).                                                                             on ROWs that did not
                                                                                                                                                 conform to the
                                                                                                                                                 existing schedules
                                                                                                                                                 due to the unique
                                                                                                                                                 nature of the ROW,
                                                                                                                                                 the high value area
                                                                                                                                                 that the ROW
                                                                                                                                                 crosses, or a
                                                                                                                                                 combination of
                                                                                                                                                 factors that led to the
                                                                                                                                                 Client Bureau
                                                                                                                                                 requesting a site
                                                                                                                                   ---
                                                                                                                                                 specific appraisal.
                                                                                                                                                   Attachment 4
                                                                                                                                                    Page 3 of13




                                                                                                                                                                            51
                                                                                           Overall
                                                      Corrective                                        Milestone Target        Responsible
    Recommendation                                                                         Target                                                 Comments
                                                       Action                                               Date(s)               Official
                                                                                            Date
4. Valuation Services should       With additional resources, OVS would establish a        06/30/2015                                         At present, OVS has
perform high priority,            discipline-specific team, in coordination with Client                                                       the staff capacity to
individual valuations as          Bureaus, to handle the high value ROW's as well as                                                          complete a limited
allowed, given their resources.   oversee development and maintenance of a comparable                                                         number of individual
                                  database. This team would be responsible for COTR                                                           valuations. With
                                  and technical valuation review for all ROW valuations.                                                      authority for the OVS
                                  Funding could be provided by legislative authority for                                                      Chief Appraiser to
                                  cost recovery of a portion of fees or direct                                                                establish valuation
                                  appropriation.                                                                                              policy across the
                                  • Department decision to fund, via appropriation or                       2014 budget     •    AS/PMB       Department, and the
                                       cost recovery.                                                                                         move from a regional
                                  • If the budget is approved, develop discipline                       •   by 10/30/2014   •    Tanya        to client team
                                        specific team for ROW assignments, including an                                          Henderson    structure, OVS can
                                       ROW database.                                                                                          effectively support
                                                                                                                                              the Bureaus in ROW
                                                                                                                                              valuation if so
                                                                                                                                              requested.                :

                                                                                                                                              Developing and            I

                                                                                                                                              maintaining the data
                                                                                                                                              necessary to carry out
                                                                                                                                              market valuations for
                                                                                                                                              ROW rents has not
                                                                                                                                              been a priority for the
                                                                                                                                              OVS due to the
                                                                                                                                              primary funding
                                                                                                                                              source for OVS being
                                                                                                                                              the L&WCF, which
                                                                                                                                              provides funding for
                                                                                                                                              land acquisitions, and
                                                                                                                                              because Client
                                                                                                                                              Bureaus do not
                                                                                                                                              generally conduct
                                                                                                                                              individual valuations
                                                                                                                                              under existing
                                                                                                                                              authorities.
                                                                                                                                              Attachment 4
                                                                                                                                               Page4ofl3




                                                                                                                                                                   52
                                                                                       Overall
                                                   Corrective                                      Milestone Target        Responsible
    Recommendation                                                                     Target                                                Comments
                                                    Action                                             Date(s)               Official
                                                                                        Date
5. Valuation Services should   Given expertise within current staff and new hires,     06/30/215                                         TheOVS can
develop and implement          focus on further education for staff and hiring for a                                                     capitalize on skills
guidance and training          discipline-specific team (see Recommendation 4.)                                                          already present
requirements for staff to      • Identify current stafffor whom training is                        •   06/31/2013      •    Tanya        within its ranks and is
conduct individual ROW              appropriate.                                                                            Henderson    moving toward hiring
valuations.                    • Provide training as indicated by Client Service                   •   by 09/30/201    •    Tanya        some additional staff
                               • Managers for current staff                                                                 Henderson    at the journey level
                               • Plan for establishing ROW-specific team, subject                  •   See recommen-   •    Tanya        that would be able to
                                    to funding under 4.                                                dation 4             Henderson    complete these
                                                                                                                                         assignments in house.
                                                                                                                                         Additional staff
                                                                                                                                         training is available
                                                                                                                                         through the
                                                                                                                                         International Right of
                                                                                                                                         Way Association as
                                                                                                                                         well as other
                                                                                                                                         professional appraisal
                                                                                                                                         organizations such as
                                                                                                                                         the American Society
                                                                                                                                         of Farm Managers
                                                                                                                                         and Rural Appraisers
                                                                                                                                         and the Appraisal
                                                                                                                                         Institute. A large
                                                                                                                                         portion of our staff
                                                                                                                                         has experience in the
                                                                                                                                         appraisal of ROWs
                                                                                                                                         and can assist with
                                                                                                                                         internal guidance and
                                                                                                                                         establishing training
                                                                                                                                         requirements for
                                                                                                                                         OVS appraisers.
                                                                                                                                                Attachment 4
                                                                                                                                                  Page 5 ofl3




                                                                                                                                                                     53
                                                                                           Overall
                                                       Corrective                                    Milestone Target       Responsible
    Recommendation                                                                         Target                                               Comments
                                                        Action                                           Date(s)              Official
                                                                                            Date
6. BLM should revise its linear   I) Consult with Solicitor's Office to review statutes,    TBD      •   09/30/2012     •    Lucas Lucero   BLM's linear rent
rent schedule and include         regulations and policies                                                                                  schedule was revised
provisions to periodically        2) Meeting with OVS and Forest Service to clarify                  •   11/30/2012     •    Lucas Lucero   in response to Section
update the schedule to reflect    scope of proposed changes                                                                                 367 of the Energy
current market value.             3) If appropriate publish Advance Notice of Proposed               •   03/3112013     •    MikeNedd       Policy Act of2005
                                  Rule                                                                                                      which directs the
                                  4) If appropriate publish a final rule                             •   12/ 15/2014    •    Mike Nedd      Secretary of the
                                                                                                                                            Interior to revise the
                                                                                                                                            per acre rental fee
                                                                                                                                            zone value schedule
                                                                                                                                            by state, county, and
                                                                                                                                            type of linear right-
                                                                                                                                            of-way use to reflect
                                                                                                                                            current values of
                                                                                                                                            land. The BLM will
                                                                                                                                            consult with our
                                                                                                                                            Solicitor's Office
                                                                                                                                            regarding the extent
                                                                                                                                            of BLM's ability to
                                                                                                                                            revise the schedule
                                                                                                                                               Attachment 4
                                                                                                                                                Page 6 of13




                                                                                                                                                                        54
                                                                                         Overall
                                                    Corrective                                        Milestone Target       Responsible
    Recommendation                                                                       Target                                                Comments
                                                     Action                                               Date(s)              Official
                                                                                          Date
7. Valuation Services should   The OVS looks forward to working with BLM and the         06/30/2014                                        Variables may
work with BLM to implement     Department to implement linear rent schedules and to                                                        include location, type
linear rent schedules for      establish a time period for completing periodic market                                                      of use (pipeline vs.
Department-wide use with       analyses to ensure that rents are in step with market                                                       fiber optic vs. power
provisions to periodically     conditions.                                                                                                 line) and throughput
update the schedules.          • Establish a working group with BLM and the                           •   10/01 /2012    •    John Ross    of commodity
                                    Department to address issues of methodology,                                                           through the line.
                                    schedule for updates, and relevant market area and                                                     Schedules may need
                                    information requirements for ROW applicants,                                                           to be based on a
                                    consistent with applicable law. Issue a report on                                                      countrywide,
                                    methodology and relevant factors for                                                                   statewide, regional,
                                    Departmental Review.                                                                                   or national basis
                               • Develop and maintain a database to support the                                                            depending on the
                                    fee schedule.                                                     •   06/30/2013,    •    Tanya        type of ROW. The
                               • Implement methodology and database .                                     see Rec. 2.         Henderson    OVS will work with
                                                                                                      •   10/01/2014     •    John Ross    BLMto help
                                                                                                                         •    Tanya        determine the market     I

                                                                                                                              Henderson    area for the given
                                                                                                                                           ROW. With
                                                                                                                                           additional funding,
                                                                                                                                           OVS will develop
                                                                                                                                           and maintain a
                                                                                                                                           database to support
                                                                                                                                           regular updates to the
                                                                                                                                           fee schedules through
                                                                                                                                           the gathering of data
                                                                                                                                           from private firms
                                                                                                                                           and direct market
                                                                                                                                           studies. This will be
                                                                                                                                           undertaken as
                                                                                                                                           appropriate based on
                                                                                                                                           existing or future
                                                                                                                                           legal authorities of
                                                                                                                                           Client Bureaus.
                                                                                                                                                   Attachment 4
                                                                                                                                                    Page 7 of13




                                                                                                                                                                        55
                                                                                          Overall
                                                      Corrective                                       Milestone Target       Responsible
     Recommendation                                                                       Target                                                   Comments
                                                       Action                                              Date(s)              Official
                                                                                           Date
8. The BLM should revise its     1) Consult with Solicitor's Office to review statutes,     TBD        •   09/30/2012     •     Lucas Lucero
communications site rent         regulations and policies
schedule and include             2) Meeting with OVS and Forest Service to clarify                     •   11130/2012     •     Lucas Lucero
provisions to periodically       scope of proposed changes
update the schedule to reflect   3) If appropriate publish Advance Notice of Proposed                  •   03/3112013     •    MikeNedd
current market value.            Rule
                                 4) If appropriate publish Final Rule
                                                                                                       •   1211 5/2014    •    MikeNedd




9. Valuation Services should     Similar to 7. above:                                     06/30/2014                                            As with the linear
work with BLM to implement       •   Establish a working group with BLM and the                        •   10/0112012     •    John Ross       rent schedules
communications rent schedules        Department to address issues of methodology,                                                              discussed above,
for Department-wide use with         schedule for updates, and relevant market area and                                                        OVS will work with
provisions to periodically           information requirements for ROW applicants,                                                              BLM and the
update the schedules.                consistent with applicable law. Issue a report on                                                         Department to
                                     methodology and relevant factors for                                                                      implement
                                     Departmental Review.                                                                                      communications rent
                                 • Develop and maintain a database to support the                      •   06/30/2013     •    Tanya           schedules and
                                     fee schedule.                                                                             Henderson       establish time periods
                                                                                                       •   see Rec. 2 .
                                                                                                                          •                    for completing
                                 • Implement methodology and database.                                 •   10/01 /2014         John Ross
                                                                                                                          •    Tanya           periodic market
                                                                                                                               Henderson       analyses to ensure
                                                                                                                                               that rents are in step
                                                                                                                                               with market
                                                                                                                                               conditions, consistent
                                                                                                                                               with applicable law.
                                                                                          Attachment 4
                                                                                           Page 8 of13




                                                                                                                  56
                                          Overall
                     Corrective                     Milestone Target   Responsible
    Recommendation                        Target                                         Comments
                      Action                            Date(s)          Official
                                           Date
                                                                                     These schedules will
                                                                                     likely be impacted by
                                                                                     similar factors to the
                                                                                     linear rent schedules
                                                                                     regarding location,
                                                                                     type of use, etc. and
                                                                                     OVS will work with
                                                                                     BLM and the
                                                                                     Department to
                                                                                     identify these
                                                                                     variables and
                                                                                     determine the proper
                                                                                     market area for
                                                                                     application of the
                                                                                     schedule. As
                                                                                     previously
                                                                                     mentioned, the
                                                                                     schedules may need
                                                                                     to be based on a
                                                                                     countrywide,
                                                                                     statewide, regional,
                                                                                     or national basis
                                                                                     depending on the
                                                                                     type of
                                                                                     communication use.
                                                                                     The OVS will work
                                                                                     with BLM to help
                                                                                     determine the market
                                                                                     area for the
                                                                                     communications
-                                 -   -   - - -
                                                                                     sites.                   -
                                                                                                                                                 Attachment 4
                                                                                                                                                  Page 9 of13




                                                                                                                                                                      57
                                                                                         Overall
                                                      Corrective                                      Milestone Target       Responsible
     Recommendation                                                                      Target                                                 Comments
                                                       Action                                             Date(s)              Official
                                                                                          Date
10. Valuation Services should     Similar to 7. and 9. above:                            01131/2015                                         By assisting BLM
work with BLM to develop          Following the report on methodology and relevant                                                          and the Department
and implement procedures for      factors and completion of the Departmental Review--                                                       with developing
Department-wide periodic          • Develop a Departmental-wide policy for                            •   06/30/2014     •    Tanya         methodologies for
reevaluations of ROW grants,           reevaluations of ROW grants.                                                           Henderson     periodic
with authority to update rental   • Develop a Quality Assurance program to manage                     •   09/30/2014     •    OVSQA         reevaluations and
rates to reflect current market        reviews of grant programs.                                                             Officer Ken   updates of the linear
values.                           • Implement policy as appropriate to the authorities                •   01/1/2015           Daw           and communications
                                       supporting the grants.                                                            •    Tanya         rent schedules OVS
                                                                                                                              Henderson     will be able to assist
                                                                                                                              andKenDaw     in the development of
                                                                                                                                            a Department-wide
                                                                                                                                            reevaluation
                                                                                                                                            procedure consistent
                                                                                                                                            with applicable law.
                                                                                                                                            The OVS can also
                                                                                                                                            assist through its
                                                                                                                                            Quality Assurance
                                                                                                                                            Division which may
                                                                                                                                            be able to conduct
                                                                                                                                            periodic audits of
                                                                                                                                            ROW grants to
                                                                                                                                            determine whether or
                                                                                                                                            not rental rates are
                                                                                                                                            still representative of
                                                                                                                                            market value after
                                                                                                                                            their initial
                                                                                                                                            implementation.
                                                                                                                                            Because of the
                                                                                                                                            different authorities
                                                                                                                                            that authorize the
                                                                                                                                            grants ROW in the
                                                                                                                                            various bureaus
                                                                                                                                            within the
                                                                                                                 -
                                                                                                                                            Department there
                                                                                                                                             Attachment 4
                                                                                                                                             Page 10of13




                                                                                                                                                                     58
                                                                                        Overall
                                                    Corrective                                    Milestone Target       Responsible
    Recommendation                                                                      Target                                               Comments
                                                     Action                                           Date(s)              Official
                                                                                         Date
                                                                                                                                         may be conflict that
                                                                                                                                         will have to be
                                                                                                                                         resolved through rule
                                                                                                                                         making or other
                                                                                                                                         administrative
                                                                                                                                         procedures. The
                                                                                                                                         OVS currently
                                                                                                                                         provides valuation
                                                                                                                                         support to four
                                                                                                                                         bureaus within DOl
                                                                                                                                         (BLM, BOR, FWS,
                                                                                                                                         and NPS) and is
                                                                                                                                         uniquely positioned
                                                                                                                                         to assist the
                                                                                                                                         Department in
                                                                                                                                         development and
                                                                                                                                         implementation of       I
                                                                                                                                                                 I
                                                                                                                                         periodic Department-
                                                                                                                                         wide reevaluation of
                                                                                                                                         these grants.
                               I) Consult with Solicitor's Office to review statutes,    TBD      •   09/30/2012     •    Lucas Lucero
                               regulations and policies                                           •   ll/30/2012     •    Lucas Lucero
11. The BLM should reduce or   2) Meeting with OVS and Forest Service to clarify                  •   03/31/2013     •    MikeNedd
eliminate the market value     scope of proposed changes                                          •   12/15/2014     •    MikeNedd
threshold required to adjust   3) If appropriate publish Advance Notice of Proposed
rents on ROW for               Rule
communications sites.          4) If appropriate publish Final Rule
                                                                                                                                                Attachment 4
                                                                                                                                                Page 11 of13




                                                                                                                                                                   59
                                                                                              Overall
                                                        Corrective                                        Milestone Target     Responsible
    Recommendation                                                                            Target                                            Comments
                                                         Action                                               Date(s)            Official
                                                                                               Date
12. The BLM and other             The Office of Budget will work with the Solicitor, the     09/30/2013   09/30/2013         Denise Flanagan
bureaus with ROW                  Office of Congressional and Legislative Affairs, and
responsibilities should explore   the Office of Management and Budget to seek
seeking authority to retain a     authority to retain a percentage of the rents identified
percentage of the revenues        during the on-site review process to fund additional
recovered from reviews that       reviews and training.
identify unpaid rent from
unreported services. Bureaus
could use these additional
revenues to fund additional
reviews.
13. The Office of Policy,         As an adjunct to the working group identified in 7, 9.     06/30/2015                      OVS and Bureaus
Management and Budget             and 10. above, convene a corollary working group to
should work with bureaus with     address this recommendation:
ROW responsibilities to           • Identify authorities that may permit penalties .                      •   06/30/2013                                       I

implement penalties for           • Review current penalty programs in Bureaus, if                        •   06/30/2013
grantees that do not                   any.
report additional services and    • Develop recommendations for the implementation                        •   12/3112013
fail to pay rents.                     of penalties.
                                  • Implement penalty programs.                                           •   10/0112014
14. The Office of Policy,         In conjunction with 13, and as an adjunct to the           06/30/2015                       OVS and Bureaus
Management and Budget             working group identified in 7, 9. and 10. above,
should work with BLM to           convene a corollary working group to address this
develop and implement             recommendation:
Department-wide procedures        • Identify authorities that may permit collection of                    •   06/30/2013
for calculating and collecting         back rents.
unpaid back rents.                • Review current rent collections programs in                           •   06/30/2013
                                       Bureaus, if any.
                                  • Develop recommendations for the implementation                        •   12/31/2013
                                       of back rent collection program.
                                  • Implement programs in each Bureau.                                    •   10/0112014
                                                                                                                              --
                                                                                                                                                            Attachment 4
                                                                                                                                                            Page 12 of 13




                                                                                                                                                                            60
                                                                                                     Overall
                                                               Corrective                                         Milestone Target       Responsible
        Recommendation                                                                               Target                                                 Comments
                                                                Action                                                Date(s)              Official
                                                                                                      Date
    15. The BLM should reduce or          1) Consult with Solicitor's Office to review statutes,       TBD        •   09/30/2012     •    Lucas Lucero
    eliminate the 75 percent              regulations and policies                                                •   11/30/2012     •    Lucas Lucero
    discount for additional grantee       2) Meeting with OVS and Forest Service to clarify                       •   03/31/2013     •    MikeNedd
    and colocator ROW site                scope of proposed changes
    services, or justify any              3) If appropriate publish Advance Notice of Proposed
                                                                                                                  •   12/15/2014     •    MikeNedd

    discount provided.                    Rule
                                          4) If appropriate publish Final Rule




    16. The NPS should continue to        1) Convene a nationwide work group to identify and         10/31/2015   •   03/29/2013     Victor Knox,
    implement a ROW management            initiate priority tasks.                                                •   10/31/2014     Associate Director,
    program that includes                 2) Conduct meetings to study the development of a system                •   10/3112015     Park Planning,
    completing an inventory of its        to inventory ROW permits.                                                                  Facilities and Lands
    ROW and assigning qualified
    realty staff.




-                                     -                                     ---                           - -                      -~
                                                                                                                                                         Attachment 4
                                                                                                                                                         Page 13 of13




                                                                                                                                                                        61
                                                                                                     Overall
                                                           Corrective                                           Milestone Target     Responsible
     Recommendation                                                                                  Target                                              Comments
                                                            Action                                                  Date(s)            Official
                                                                                                      Date
                                                                                                                                   Eldred Lesansee,
                                                                                                                                   Director, Office of
17. Appraisal Services should       1) Consultation with the Office of Solicitor to evaluate and   12/3112013                      Appraisal Services
consult with the Office of the      detennine which recommendations in this report are
Solicitor to detennine which        applicable to Indian Affairs.
recommendations in this report
are applicable to Indian Affairs.
                                    2) Consultation with the BIA Division of Real Estate
                                    Services may also be necessary to determine the
                                    applicability of realty requirements identified as a
                                    recommendation in the report.
Appendix 5: Status of
Recommendations
In response to our draft report, the Department generally concurred with all 17 of
our recommendations and agreed to implement them. The response included
corrective action plans and an action official for each recommendation (see
appendix 5). We consider 13 recommendations resolved and not implemented,
and four recommendations unresolved or not fully resolved.

 Recommendations                Status                   Action Required


 1, 3, and 11                   Unresolved               Please provide
                                                         clarification within 30
                                                         days.




 2, 4, 5, 6, 7, 8, 9, 10, 12,   Resolved, not            The recommendations
 13, 14, 15, and 17             implemented              will be referred to the
                                                         Assistant Secretary,
                                                         Policy, Management and
                                                         Budget for tracking of
                                                         implementation.


 16                             Management concurs;      Please provide
                                additional information   additional information
                                needed                   within 30 days.




                                                                                   62
                                    


            Report Fraud, Waste,                                        
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                   800-424-508  1
                        Washington Metro Area               202-208-5300
                                                                         
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                              
